<html>
<title> - IMPLICATIONS OF A NUCLEAR AGREEMENT WITH IRAN (PART IV)</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                      IMPLICATIONS OF A NUCLEAR AGREEMENT WITH 
                                IRAN (PART IV)

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 9, 2015

                               __________

                           Serial No. 114-103

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                
                                __________
                                
                                
                      U.S. GOVERNMENT PUBLISHING OFFICE
96-048PDF                 WASHINGTON : 2015                      
                                
                                
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d0b7a0bf90b3a5a3a4b8b5bca0feb3bfbdfe">[email&#160;protected]</a>  
                                
                                
                                
                                
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

General Chuck Wald, USAF, Retired (former Deputy Commander, U.S. 
  European Command)..............................................     5
Admiral William Fallon, USN, Retired (former Commander, U.S. 
  Central Command)...............................................    13
Vice Admiral John Bird, USN, Retired (former Commander, U.S. 
  Seventh Fleet).................................................    18
Mr. Leon Wieseltier, Isaiah Berlin Senior Fellow in Culture and 
  Policy, Foreign Policy and Governance Studies, The Brookings 
  Institution....................................................    24

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

General Chuck Wald, USAF, Retired: Prepared statement............     7
Admiral William Fallon, USN, Retired: Prepared statement.........    16
Vice Admiral John Bird, USN, Retired: Prepared statement.........    20
Mr. Leon Wieseltier: Prepared statement..........................    28

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    65

 
        IMPLICATIONS OF A NUCLEAR AGREEMENT WITH IRAN (PART IV)

                              ----------                              


                      WEDNESDAY, SEPTEMBER 9, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:17 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. I will ask 
everyone to take their seats at this time. This hearing is on 
implications of a nuclear agreement with Iran. This morning, 
the committee continues to examine the administration's 
agreement. To help further assess this deal we are joined by 
several retired officers, two admirals and a general, who 
served their country with distinction, and we have a noted 
thinker with us on the region.
    And this, by the way, is I think the 30th hearing that we 
have held on this issue, 30th hearing or briefing, since these 
negotiations began. I appreciate the commitment that all the 
members have made to analyze what is a very complex issue here, 
as the House gets set for a vote this week. I would like to 
recognize Ranking Member Engel for his partnership as we have 
approached the issue in a bipartisan way throughout these 
hearings.
    Unfortunately, in my view, it is quite clear that this 
agreement makes Iran stronger at the end of the day. I say that 
because the billions of dollars here, some $100 billion 
provided in immediate sanctions relief, is just a down payment, 
as Iran is guaranteed a reconnection to the global economy. The 
strangle on its banks and businesses, the money that has been 
held in escrow, will now be returned to the regime. It will be 
returned in the way of a system in Iran where the IRGC and the 
Quds Forces own many of the major businesses in the country.
    So it is not just unlocking this money from escrow into the 
accounts of senior IRGC leaders, clerics, and the Ayatollah 
himself, who increasingly controls the businesses in Iran. It 
is also putting into motion what comes next in terms of future 
deals, where those individuals are going to be the key 
decisionmakers. They are the ones that are going to be 
empowered under this agreement.
    Politically, of course, that means it solidifies the 
Supreme Leader's grip on power. That is why he did the deal, to 
keep his revolution intact. As we said early on, the right kind 
of pressure on Iran would give that Ayatollah a choice between 
real compromise on his nuclear program or economic collapse, 
but that legislation that we passed to put on those additional 
sanctions was blocked in the Senate.
    So militarily, in a few short years--if they wait that 
long--Iran is free to build up its tanks, its fighter jets, its 
intercontinental ballistic missiles. Its proxies in the region 
can continue to wreak havoc and back terrorism. Indeed, Iran's 
elite Quds Force has transferred funds to Hamas to rebuild a 
network of tunnels from Gaza to attack Israel.
    Myself and Ranking Member Engel have been in those tunnels. 
I must tell you, reading the account in The Journal of the fact 
that Israel is now going to face a situation where the Quds 
Forces and the Iranian regime are going to not only rebuild the 
terror tunnels, but have also made the commitment to transfer 
the rockets to replenish the inventory, and on top of that, the 
commitment now, the discussion on the part of Iran to transfer 
the precision-guided weapons so that Hezbollah will have the 
opportunity to unleash what used to be an inventory of 10,000 
rockets and missiles. When I was there, in Haifa, in 2006, and 
those rockets were slamming into the city, and there were 600 
people in the trauma hospital, there was an inventory of 
10,000. Now, thanks to Iran, there is an inventory of over 
80,000 of these.
    What is it that Iran seeks to do? It needs the hard 
currency to transfer that capability for GPS guidance for a 
system that will allow the targeting of those rockets and 
missiles so that individual targets, individual buildings, the 
airport, and so forth, can be hit inside Israel. That is what 
we are talking about when we say that it is going to unleash 
$100 billion in capital that is held right now.
    Then, Iran is a few steps away from a nuclear weapons 
program on an industrial scale. It will take a few years, but 
at the end of that process, as the President has detailed, Iran 
will be a step away from that.
    As Iran grows stronger across the board, the United States 
will be weaker to respond. By removing economic sanctions, the 
President is withdrawing one of our most successful, peaceful 
tools for confronting the Iranian regime. As international 
investment pours into Iran, there is going to be tremendous 
political pressure to not upset that apple cart--to keep the 
agreement going at all costs, no matter what Iranian cheating 
might be found. Why do I think that? Because we have already 
seen General Soleimani of the Quds Force take his trek, his 
trip into Russia to negotiate. We have already seen the 
announcement of the Fateh 313 rocket, a missile with a range of 
over 300 miles. That was presented a few weeks ago.
    Is anyone speaking out about arms violations with respect 
to transfer of these types of weapons to Hamas and Hezbollah? 
No, no, because they don't want to upset the apple cart. 
Indeed, the administration's pressure--there is a lot of 
pressure on the IAEA, some of that came from the 
administration--and that got us a deal with the Iranians being 
able to self-inspect a key military site, setting a dangerous 
precedent, frankly, for the future. Because when you set that 
standard for self-inspections, that becomes the precedent that 
everybody else wants, including the Iranians the next time they 
are challenged on the suspicion of some particular military 
site where they might be doing work. And even if we wanted to 
hit back against Iran's cheating, ``snapping back'' sanctions, 
I think, under these conditions, especially with the Iranians 
having a vote on the seven-member consortium of countries that 
are going to determine this, China having a vote, Russia having 
a vote, they only have to pick off one more European country 
that they are doing business with in order to make it very, 
very difficult for us to have ``snapback.''
    As a group of 200 retired generals and admirals recently 
concluded,

        ``This agreement will enable Iran to become far more 
        dangerous, render the Mideast still more unstable, and 
        introduce new threats to American interests, as well as 
        our allies. In our professional opinion, far from being 
        an alternative to war, the [agreement] makes it likely 
        that the war the Iranian regime has waged against us 
        since 1979 will continue, with far higher risks to our 
        national security interests.''

    Are the temporary restraints on Iran's nuclear program 
under this agreement worth that cost? President Obama is 
clearly betting that it is--that Iran will change enough over a 
short 10 to 15 years to be trusted with what by then will be 
internationally endorsed bomb-making technology on an 
industrial scale.
    But as we will hear today, that is a bet against history. 
As one witness recently wrote, Iran's enduring hostility toward 
us isn't ``an accident of historical inertia. ``But a choice by 
Iran--a choice based upon a world view that was founded in 
large measure on a fiery, theological anti-Americanism, an 
officially sanctioned and officially disseminated view of 
Americanism as satanism.'' That is why we are used to hearing 
that rhetoric from the Ayatollah that Israel is the little 
Satan and the United States is the great Satan.
    So I now turn to the ranking member, Mr. Eliot Engel of New 
York, for any opening comments he may have.
    Mr. Engel. Mr. Chairman, thank you for calling today's 
hearing. When all is said and done with the Iran deal, I don't 
think anyone will accuse this committee of skimping on our due 
diligence. We have heard from administration officials and 
experts from across the spectrum. So thank you for your 
leadership, Mr. Chairman, and thoroughness on this issue.
    To our witnesses, welcome to the Foreign Affairs Committee. 
I look forward to your testimony.
    I certainly respect everyone's opinions, even though they 
may differ from mine, but as I announced a month ago, I cannot 
support the Iran nuclear deal. I have laid out the concerns 
that led me to that decision, and I will quickly recap.
    First of all, I am not persuaded that this deal will give 
IAEA inspectors the access they need to do their jobs. Between 
potentially lengthy delays and confusion over inspecting the 
Parchin military base, this deal leaves too many loopholes for 
the Iranians to slip through. Unfettered access for inspectors 
is the only way we can be sure Iran stops its work toward a 
nuclear weapon, and this deal does not provide unfettered 
access.
    Secondly, I believe the deal gives away too much when it 
comes to sanctions on advanced conventional weapon and 
ballistic missile development. As far as I knew, these issues 
weren't even on the table, yet with this deal, a few years down 
the road Iran could be buying advanced weapons and building 
missiles and still be fully compliant with its obligations. And 
even if Iran were to violate these provisions early, that 
violation wouldn't trigger a snapback of economic sanctions.
    Which brings me to another concern: What will Iran's 
leaders do when they again have access to the billions and 
billions of dollars currently frozen by international 
sanctions? Even with the sanctions in place, Iran has been the 
world's largest state sponsor of terrorism. When these new 
resources pour into Iran, I have no doubt it will mean payday 
for Hamas, Hezbollah, and other extremist groups around the 
world. The intentions are pretty clear of leaders who chant 
``Death to America'' and ``Death to Israel'' just days after 
concluding an agreement.
    And lastly and fundamentally, 15 years from now, this deal 
allows Iran to produce highly enriched weapons-grade uranium 
without any restriction. This deal legitimizes Iran as a 
nuclear threshold state in the year 2030; gives Iran's leaders 
the green light to build a stockpile of nuclear fuel. If they 
pursue that course, and I believe they will, it could trigger a 
nuclear arms race across the region. Even a decade-and-a-half 
away, that is a risk we cannot take.
    Those are my chief concerns, and that is why I can't 
support this deal. But I don't think anyone here would disagree 
that it is going to be very difficult to stop this deal from 
being implemented. So I think it is important for us to start 
considering, what are the next steps if and when this deal goes 
through? What will we need to ensure the security of Israel and 
our other friends and allies in the region, including the Sunni 
Gulf states? What steps can be taken to prevent Iran's newfound 
wealth from ending up in terrorist hands?
    I know we will hear a lot today from witnesses and my 
colleagues that this is not the deal we hoped for, and I agree. 
I do believe this committee now has a responsibility to look 
ahead and think strategically about what comes next. So I look 
forward to hearing from our witnesses, Mr. Chairman. I thank 
you again, and I yield back.
    Chairman Royce. Thank you, Mr. Engel. And this morning----
    Mr. Connolly. Would the ranking member yield before he 
yields back his time?
    Mr. Royce. I would be happy to yield.
    Mr. Connolly. I thank the chair.
    Given the fact that both the chairman and the ranking 
member have talked about their concerns about the deal, just 
for the record, there are a number of us who actually have a 
different opinion. I believe this is a vigorous and enforceable 
agreement. I believe it is the only path to peace. I believe it 
rolls back the nuclear capability of Iran for a substantial 
period of time that gives us time to make sure we have an even 
more long-lasting agreement.
    I believe it is enforceable. I believe it is verifiable. I 
believe it is a robust agreement. I believe it is one we don't 
need to apologize for. And the choice is stark. They are within 
2 to 3 months of developing a bomb or 15 years. I choose the 
latter enthusiastically.
    And I thank the ranking member for his courtesy and the 
chairman.
    Chairman Royce. Thank you, Mr. Connolly.
    This morning we are pleased to be a joined by a 
distinguished panel with a range of views before the committee.
    General Chuck Wald served as the former Deputy Commander of 
the U.S. European Command, overseeing all U.S. forces operating 
across 91 countries in Europe, Africa, Russia, parts of Asia 
and the Middle East, and most of the Atlantic Ocean.
    Admiral William Fallon served as the former Commander of 
the U.S. Central Command, where he directed all U.S. military 
operations in the Middle East, Central Asia, and the Horn of 
Africa.
    Vice Admiral John Bird served in a variety of positions, 
including as the former Commander of the Seventh Fleet and as 
the Director of Navy Staff.
    Mr. Leon Wieseltier is the Isaiah Berlin Senior Fellow in 
Culture and Policy at the Brookings Institution. He is a senior 
editor and critic at The Atlantic, for which he recently wrote 
an article titled ``The Iran Deal and the Rut of History.''
    And so without objection, the witnesses' full prepared 
statements will be made part of the record. Members will have 5 
calendar days to submit statements and questions and any 
extraneous material for the record.
    And, General Wald, I would ask you if you could please 
summarize your remarks.

 STATEMENT OF GENERAL CHUCK WALD, USAF, RETIRED (FORMER DEPUTY 
               COMMANDER, U.S. EUROPEAN COMMAND)

    General Wald. Thank you, Mr. Chairman, Ranking Member 
Engel, and members of the committee. Thank you for the 
opportunity to appear before you today to discuss the 
implications of the Joint Comprehensive Plan of Action.
    I served in the Air Force as a pilot and air commander for 
over three decades. I have commanded air operations in Bosnia 
and Afghanistan, and I am intimately familiar with the U.S. 
allies and adversaries in the Middle East, as well as the 
capabilities the U.S. military uses to protect one and deter 
and defeat the other.
    Two weeks ago, JINSA's Gemunder Center for Defense and 
Strategy released a report from its new Iran Strategy Council, 
which I co-chaired, in which Vice Admiral Bird is also a 
member, analyzing the Iran deal's potentially grave 
repercussions. Our findings are straightforward. JCPOA does not 
reduce the need for a robust military presence in the Middle 
East, nor does it preclude the possibility of a military 
confrontation with Iran. Instead, it creates a much more 
difficult strategic environment for the United States to 
operate in over the next 15 years, if not longer.
    Let me explain how we came to that conclusion. First, the 
deal does not prevent a nuclear Iran. It merely kicks the 
centrifuge issue down the road for 15 years when the 
agreement's major nuclear restrictions lapse. At that point, 
according to President Obama, Iran will have advanced 
centrifuges that enrich uranium fairly rapidly, and at that 
point the breakout times would have shrunk almost down to zero. 
Should Tehran decide to sprint for nuclear weapons capability, 
something that it can do in weeks, if not days, U.S. options 
for preventing a nuclear Iran will be extremely limited.
    Second, Iran can still become a nuclear threshold power. 
This does not remove the need to maintain a long-term credible 
military option against Iran's nuclear program. This is why 
President Obama has also cautioned that if 15 or 20 years from 
now Iran tries to build a bomb, this deal ensures the United 
States will have the same options available to stop weapons 
programs as we have today, including, if necessary, military 
options.
    Third, the deal actually increases the need for the United 
States to project power in the region so to protect its 
interests and allies from potential Iranian interference. Vice 
Admiral Bird will testify, JCPOA grants Iran access to 
resources and technology with which to modernize its Armed 
Forces and continue to pursue the pursuit of hegemonic and 
destabilizing activities in the Middle East.
    This leads to the question: If continued or increased U.S. 
military presence in the Middle East will be required under 
this deal, what will the strategic environment that we will be 
operating look like?
    I believe two main dynamics will shape the ability of the 
United States military to project power and operate in the 
Middle East. First, the decline in U.S. military capabilities, 
in strength, force structure, readiness, and modernization, 
that is already happening and will only get worse if 
sequestration, the decades of cuts to the defense budget, are 
allowed to continue for the remaining 6 years. Second, the 
erosion of U.S. credibility in the eyes of our Middle Eastern 
allies as a result of our accepting a deal that they view as 
fundamentally dangerous.
    Combined, these dynamics mean the United States may still 
have the military option when JCPOA expires, but it will face a 
far more dangerous and difficult one than it is today. In sum, 
this deal creates a strategic environment in which Iran can 
pursue nuclear weapons capability at a much lower level of 
risk.
    Thank you, Mr. Chairman.
    [The prepared statement of General Wald follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                             ----------                              

    Chairman Royce. Admiral Fallon.

   STATEMENT OF ADMIRAL WILLIAM FALLON, USN, RETIRED (FORMER 
                COMMANDER, U.S. CENTRAL COMMAND)

    Admiral Fallon. Mr. Chairman, Congressman Engel, members of 
the committee, thank you for this opportunity to address this 
distinguished body and offer my perspective on this nuclear 
arrangement with Iran and related questions.
    I think this is an important issue because Iran has 
accumulated a very large quantity of enriched uranium and is, 
by many accounts, near the threshold of nuclear weapons 
capability. This emerging capacity, when coupled with a 
virulent anti-Western rhetoric and a long record of malign 
activities, presents a very real threat to U.S. interests.
    Iranian bad behavior abroad, spearheaded by the IRGC Quds 
Force, and executed mainly by their proxies, has fomented 
regional instability and attacked U.S. personnel and interests 
around the world, actions which I witnessed firsthand in 
Lebanon in the early 1980s and in Iraq and Afghanistan when I 
was Commander of U.S. CENTCOM in the last decade. I am under no 
illusions regarding Iranian Government behavior since the 
Islamic revolution, and I believe that some elements in that 
country would be very pleased to posess nuclear weapons.
    It is precisely this near-term potential to achieve nuclear 
weapons capability that I believe presents the most serious 
challenge with Iran. Notwithstanding many grievances and 
intolerable activity by the Iranian agents in places around the 
world, the most pressing issue for America, Israel, and our 
Middle Eastern allies is the very real possibility that Iran 
could soon acquire a nuclear weapon.
    To address this threat, representatives of the 
international community have been negotiating for many months 
with one key objective: To stop Iran from acquiring a nuclear 
weapon. The resulting joint plan, in my opinion, offers a good 
chance to do just that and is far superior to the status quo 
alternative which would leave Iran with a massive stockpile of 
enriched uranium, no firsthand scrutiny of ongoing related 
activities, and if this deal is rejected, new motivation to 
accelerate their efforts.
    I have scrutinized this agreement very carefully and I 
support it with reservations and I recommend your approval of 
the plan. Frankly, I was surprised but pleased that so many 
diverse interests represented in the negotiations could 
actually coalesce an agreement on a document that on balance I 
think is a reasonable way forward.
    But I want to make perfectly clear about the most important 
reality: Neither we, nor the Iranians, really trust each other 
to actualize the features of this deal, and that is very 
important to keep in mind as we go forward.
    A positive aspect of this arrangement is that after more 
than 36 years of open hostility and a lack of substantive 
discussion on any issue, the two sides came together and agreed 
a way ahead of utmost importance. The negative is the devil in 
the detail: The implementation is going to require close 
scrutiny and verification. I think the most important strength 
of the deal is the broad international agreement and the 
priority of stopping Iran's nuclear weapons.
    There are many points you can read in my testimony that I 
think effectively block the uranium path to a weapon. By 
sabotaging the Arak heavy water reactor, it basically sets back 
the plutonium option for a substantial amount of time. There 
are other issues that have been addressed variously and will be 
addressed, I think, by the IAEA. You can have your own opinions 
about those.
    I think that the biggest weakness of the agreement is that 
there doesn't appear to be any practically effective way to 
monitor very small-scale Iranian misbehavior should they choose 
to continue or resume it. Likewise, the full resolution of the 
PMD suspicions is really unlikely because it would probably 
depend on Iranian admission of past violations of the NPT and 
the Comprehensive Safeguards Agreement. And historically, the 
IAEA has not been seen as the most aggressive entity in 
pursuing scofflaws.
    Regarding long-term implications of the agreement on 
regional stability, I think there is good potential for 
positive development. The most important issue, the imminent 
threat of an Iranian nuclear weapon, has forestalled easing the 
high anxiety that exists in the region and with Israel. 
Suspension of sanctions will increase economic activity and 
personal travel, boosting interaction with the Iranian 
population, resulting in pressure to normalize state-to-state 
relationships.
    The potential for confidence building and maybe even trust 
at some point between Iran and the international community as 
implementation proceeds could initiate a more pragmatic 
political dynamic inside Iran to address the very real unrest 
and frustrations of the population, the majority of whom are 
under 30 years of age.
    Much is going to depend on Iranian behavior toward its 
neighbors and whether it continues to instigate the Shia 
minorities to confront Sunni leadership in the Gulf countries. 
In Iraq, there is certainly some overlap in U.S. and Iranian 
interests, but clearly their priority is to maintain influence 
with Baghdad.
    In addressing Iran's benign activities globally, we should 
make sure at every opportunity that cooperation with Iran on 
this comprehensive current nuclear weapons deal in no way will 
excuse or cause us to ignore Iranian bad behavior in other 
areas. Strengthening our ties to the GCC, encouraging 
cooperative security efforts by these nations, supported by 
consistent engagement by U.S. forces, should reassure these 
countries of American resolve and disabuse them of any notion 
that we may be aligning ourselves with Iranian interests in the 
region.
    The significant current disagreement between the U.S. and 
Israel regarding the approach to Iran is recognized as a 
difference in priority of national interest, should be 
addressed with a continued strong U.S. commitment to Israeli 
security.
    In summary, this joint plan is a unique opportunity to 
address one of the most pressing issues of international 
security and stability today. The agreement has been 
painstakingly negotiated in concert with allies and other 
parties, and I believe offers the most reasonable and likely 
way ahead to forestall an Iranian nuclear weapon for the next 
decade or more. It may not satisfy every aspiration, but I have 
heard no credible alternative proposal.
    American initiative and persistence enabled the parties to 
come to an agreement, and continued leadership will be 
essential for successful implementation. I recommend 
congressional support with continued engagement to enable 
implementation and verification of the many complex and 
critical aspects of the agreement.
    Thank you, and I will be pleased to answer any specific 
questions you may have.
    [The prepared statement of Admiral Fallon follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  ----------                              

    Chairman Royce. Thank you, Admiral.
    Admiral Bird.

   STATEMENT OF VICE ADMIRAL JOHN BIRD, USN, RETIRED (FORMER 
                 COMMANDER, U.S. SEVENTH FLEET)

    Admiral Bird. Mr. Chairman, Ranking Member Engel, members 
of the committee, thank you for the opportunity to appear 
before you today. It is an honor and a privilege to be here 
joined by such distinguished and highly accomplished 
professionals on this panel. My decades of service as first a 
career submarine officer, and then a fleet commander of the 
United States Navy afforded me the experience and expertise to 
understand potential threats posed by adversaries like Iran, 
especially in the maritime environment.
    Along with General Wald, I am a member of the new Iran 
Strategy Council, an organization of former senior U.S. 
military officials sponsored by JINSA's Gemunder Center for 
Defense and Strategy. As General Wald stated, we released a 
report last week assessing that the JCPOA will make the United 
States and its allies less secure and military confrontation 
with Iran and its proxies more likely.
    Specifically and fundamentally, the JCPOA will allow Iran 
to become a nuclear threshold state no later than 15 years. 
During that time, it will enable Iran to become more powerful 
and expand its influence not only across the Middle East, and 
negatively impact U.S. national security. The JCPOA's lifting 
of economic sanctions will provide to Iran more resources for 
military spending, while its ending of the U.N. arms embargo 
will give Iran access to advanced technologies and weapons from 
abroad, most likely from China and Russia.
    Iran will likely use these opportunities to augment its 
asymmetric capabilities to include anti-access area denial 
strategy to deter or prevent our military forces from operating 
effectively in the Middle East. This could include more 
accurate antiship missiles, attack craft, submarines, mines, 
advanced air systems, UAVs, longer-range radars, enhanced EW 
and CW capabilities. In short order, Iran could credibly 
threaten to seal off the Straits of Hormuz, block the flow of 
oil through the Persian Gulf, and target our military forces 
and those of our allies. And once sanctions end on its 
ballistic missile program, Iran could more easily develop 
weapons capable of reaching targets in the Middle East and 
beyond, including Europe.
    Additionally, the JCPOA will allow Iran to funnel more 
money and weapons to destabilizing forces across the region, 
from the Assad regime in Syria, to Shia militias, chiefly 
Hezbollah, to expanded involvement in Yemen and other strategic 
parts of the Arabian Peninsula that are vulnerable to sectarian 
conflict. Therefore, the JCPOA will aggravate sectarian 
conflict, trigger nuclear and conventional proliferation, and 
strain ties with our regional allies.
    Meanwhile, sequestration is diminishing our military's 
ability to deter and respond to global threats, including 
increased Iran aggression. Maintaining our position in the 
Middle East to prevent a nuclear Iran will demand increasing 
resources, posture, and attention, far more than is provided 
today.
    To Ranking Member Engel's point, now that we have the 
agreement, what next?
    First, we need to sustain multilateral engagement and 
enhance it with our Middle East allies to assemble a regional 
coalition to hold the line against Iran, built on greater 
cooperation on missile defense, intelligence, and air and 
maritime superiority.
    Second, significant diplomatic effort must be devoted to 
convincing Iran's most likely suppliers, mainly Russia and 
China, not to sell Iran advanced weapons.
    Third, we must develop a comprehensive national strategy to 
deal with Iran's growing adversarial ambitions.
    Finally, we must preserve our country's military edge 
against Iran with recapitalization, investment, and 
modernization of our forces.
    I thank you, Mr. Chairman, for my time, and I look forward 
to the committee's questions.
    [The prepared statement of Admiral Bird follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Chairman Royce. Mr. Wieseltier.

 STATEMENT OF MR. LEON WIESELTIER, ISAIAH BERLIN SENIOR FELLOW 
 IN CULTURE AND POLICY, FOREIGN POLICY AND GOVERNANCE STUDIES, 
                   THE BROOKINGS INSTITUTION

    Mr. Wieseltier. Thank you, Chairman Royce and Ranking 
Member Engel. Thank you all to members of this committee.
    Many critics more expert than myself have commented on the 
technical details of the Joint Comprehensive Plan of Action 
that the Obama administration has concluded with the Islamic 
Republic of Iran. In truth, it does not take an expert to 
understand the shortcomings of this deal if the objective of 
the deal is indeed to prevent Iran from obtaining a nuclear 
weapon. Since this is an objective that the administration 
plainly shares, its satisfaction with an arrangement that 
achieves this objective only temporarily, for a short period of 
time, while otherwise vindicating and legitimating Iran's 
eventual ability to weaponize its nuclear knowledge and 
infrastructure is difficult to understand.
    From the standpoint of arms control, this deal is a 
respite, not a release from our well-founded anxiety about 
Iran's military ambitions. A respite is only a pause, and the 
Joint Comprehensive Plan of Action is only a pause. It is not a 
reckoning with the prospect of an Iranian nuclear arsenal, it 
is a postponement of such a reckoning. The Iranian regime did 
not make a strategic decision to renounce nuclear weapons. It 
made a tactical decision to defer nuclear weapons so as to 
accomplish the strategic decision it did make, which was to 
escape the crushing sanctions that were the result of its 
nuclear adventurism.
    We used a lot of leverage for too little. All the ominous 
options must remain on the infamous table. The accord is a 
change in degree, not a change in kind.
    The dissatisfaction with the accord that I have just 
expressed concerns only the arms control aspects of the deal. 
But arms control never takes place in a political and strategic 
vacuum. It cannot be insulated from history or from morality. 
We recently learned this rather bitterly in Syria where the 
confiscation of its dictator's arsenal of chemical weapons 
turned out to have no impact whatever upon the conduct or the 
outcome of this catastrophic war and its endless atrocities. In 
the Syrian case, indeed, the narrow focus upon arms control was 
a way to evade the larger moral and strategic challenges of the 
horrors which this administration, its lofty rhetoric 
notwithstanding, has adamantly refused to face. I fear that the 
Iran deal is playing a similarly evasive role in the thinking 
of the administration.
    At least our adventure in arms control in Syria did not 
alter our contempt for its regime, even if our contempt had no 
practical implications for our policy. In the case of Iran, 
however, the deal that we have just concluded and the spirit in 
which we have just concluded it strongly suggests that this 
exercise in arms control represents something more--a revision 
of our troubled relationship with Iran, an attempt to establish 
some sort of detente with the Islamic Republic, a lovely hope 
that it can be reintegrated into the community of nations.
    The President has both confirmed and denied such an 
interpretation of the accord in keeping with his tactical needs 
of the moment. But it is hard not to intuit in this deal the 
hand that he extended to the Islamic Republic as long ago as 
his first inaugural address. For this reason, it is important 
that the deal be analyzed, not only as arms control, but also 
as foreign policy. And it disappoints me as foreign policy even 
more than it disappoints me as arms control.
    It is not always the case that conflict is the result of a 
misunderstanding or a mistake. Sometimes conflict is a sign 
that differences have been properly understood. The troubled 
relationship of the United States with Iran should be troubled. 
Our previous hostility to the Islamic Republic was not based on 
a misreading of the Islamic Republic in its conduct within its 
borders or beyond it borders.
    When one speaks about an unfree country, when one says the 
word ``Iran,'' for example, one may be referring either to its 
government or to its people, but one may not be referring to 
both because they are not on the same side. An expression of 
friendship toward a dictatorship is an expression of enmity or 
indifference toward its people.
    The President, when he speaks about Iran, likes to believe 
that he is speaking about its people, but in practice it is the 
regime to whom his hand has been warmly extended. The text of 
the accord states that we will submit a resolution to the 
Security Council ``expressing a desire to build a new 
relationship with Iran,'' not a new relationship with a new 
Iran, but a new relationship with this Iran, with a criminal, 
oppressive, theocratic, belligerent, corrupt, anti-American, 
anti-Semitic, misogynistic, and homophobic regime that is 
consecrated no only to its God, but also to thwarting American 
allies and interests and principles everywhere and 
remorselessly sponsoring terrorism.
    What democrat, what pluralist, what liberal, what 
conservative, what believer, what nonbeliever, what American 
would want this Iran for a friend? What constructive role can 
this Iran--yes, I know it is opposed to ISIS--play in the 
community of nations? And what constructive role can it play 
toward its own people? When the sanctions are lifted and Iran 
is economically rewarded for limited and passing concessions on 
its enrichment program, it will, of course, use some of the 
windfall to intensify its mischief abroad, about which more in 
a moment, and it will use the rest of its windfall to 
strengthen its economy. But we have no reason to think that 
opening up an economy has the effect of opening up a society.
    There is a great deal of saddening but serious evidence 
that economic liberalization need not entail political 
liberalization. We hear a lot about a contest in Tehran between 
hardliners and moderates, as we have in previous periods of 
wishful thinking about Iran, but it is important to remember 
that political conflict in Iran takes place within an 
absolutist structure of power in which supreme authority rests 
with a single individual who rules by divine sanction. If the 
Ayatollah and the IRGC have not opened up their society, it is 
not because they lack the cash.
    Consider also the Iranian regime's foreign policy. During 
the period of our negotiations with Iran, Iran was intervening 
furiously to inflame the Shia in Iraq, to prop up Bashar al-
Assad in Syria, to support Hezbollah in Lebanon, and to arm 
Hamas in Gaza. Its regional aggressions, which were directed at 
American interests and American allies, were uninhibited by a 
fear of offending the United States during a delicate 
negotiation about an issue of the highest importance.
    We, by contrast, inhibited ourselves in all these places. 
We stayed our hands for many reasons, but one of them was a 
worry about damaging our nuclear diplomacy with Iran. The 
lessons of the 1970s and 1980s, when the United States had the 
wisdom and the courage to press the Soviet Union all at once 
about arms control and human rights and proxy wars, were lost 
on our President.
    And there is also the question, or rather the cause, of 
Israel. The Islamic Republic's ceaseless calls for the 
extermination of the Jewish state must not be treated as some 
sort of foible or eccentricity that makes us sigh as we get on 
with the really important business. It should disgust us as a 
Nation and our disgust should take the form of policy.
    Whatever one thinks of Israel's methods in intervening in 
the American debates, or of its actions and inactions toward 
the Palestinians, it would be indecent not to understand 
Israel's anguish at the prospect of the nuclearization of a 
state that arms its enemies and is eager for its destruction.
    From the standpoint of foreign policy then, the nuclear 
accord disturbs me because it will almost certainly invigorate 
a contemptible and bellicose regime. And so I propose that in 
the aftermath of the accord we proceed to do whatever we can to 
weaken that regime. The adoption of the Joint Comprehensive 
Plan of Action should be accompanied by a resumption of our 
hostility to the Iranian regime and its various forces.
    The suggestion is not as paradoxical as it sounds. 
Diplomats like to say that you talk with your enemies. They are 
right, and we have talked with them, but they are still our 
enemies. We need to restore democratization to its pride of 
place among the priorities of our foreign policy and to oppress 
the theocrats in Tehran everywhere with expressions in word and 
deed of our implacable opposition to their war on their own 
people.
    We need to support Iranian dissidents in any way we can, 
not least so that they do not feel abandoned and alone, and we 
must indefatigably demand the release of Moussavi and Kairoubi 
from the house arrest in which they have been sealed since the 
regime's crackdown on the democratic rebellion of 2009, on 
which our Government turned its back. And how, in good 
conscience, could we have proceeded with these negotiations 
while an innocent American journalist was held captive in an 
Iranian jail?
    We need to despise the Iranian regime loudly and regularly 
and damage its international position as fiercely as we can for 
its desire to destroy Israel. We need to degrade by sanctions 
and other means the more dangerous elements of Iran's 
conventional arsenal. And we need to arm the enemies of Iran in 
Syria and Iraq and therefore offer a consequential obstacle to 
Iran's plain-as-day campaign to attain regional hegemony.
    But even as I say these word, my heart sinks, because I 
know that that administration will not accept such activist 
prescriptions. And yet, it is not just the Obama administration 
that has preferred a diminution of America's presence in the 
world when it comes to asserting American power as a force for 
security and justice, of recognizing the legitimacy and the 
necessity of American interventions against evils that offend 
our interests and our values--and of recognizing too that there 
are many courses of action that fall between Obama's lassitude 
and Bush's shock and awe--when it comes to articulating a right 
and fierce sense of America's responsibility in the world, 
neither Democrats, nor Republicans have exactly covered 
themselves in glory in recent years.
    The adoption of the Joint Comprehensive Plan of Action 
would be an appropriate occasion for opening a new discussion 
of the first principles of our foreign policy. Thank you.
    [The prepared statement of Mr. Wieseltier follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  ----------                              

    Chairman Royce. Thank you, Mr. Wieseltier. I have a 
question for you, and it goes to this issue of looking back in 
time at what has worked.
    You are right in terms of the difficulty in finding an 
effective approach to changing these types of totalitarian 
regimes. But in the 1980s, I was part of an exchange program 
that was partly in Eastern Europe, and I watched the 
combination of strategy, bringing down the price of oil then to 
$10 a barrel, the focus on what could be done in terms of 
broadcasting with Radio Free Europe/Radio Liberty, which was 
much, much different. I mean it was a lesson plan in political 
tolerance, in political pluralism. It was taking a society that 
was two to one opposed to the totalitarian regime and 
ratcheting it up until it was three to one or four to one in 
opposition.
    What is interesting to me is that for the last generation 
in Iran, people have been two to one against the theocracy. The 
last Gallup Poll I saw, when they asked the question, ``What 
type of system do you want?'' they said, ``A Western-style 
democracy without a theocracy.'' That was the will of two-
thirds of the people.
    Now, when you have a theocracy, when you have a 
totalitarian regime, that is not enough to get you there, from 
our experience with Eastern Europe, but if you ratchet that up, 
you can get there. And I think the frustration for many of us 
was the failure to deploy. I mean, now it is dysfunctional, 
Radio Free Europe/Radio Liberty, that is dysfunctional. Support 
for the opposition, nonexistent. In 2009, when the students 
were protesting, they did not feel that the United States was 
on their side in that debate, nor was the broadcasting on their 
side during that debate, or on social media on their side 
during that debate.
    So the question for me would go to your observation, you 
know, the parallel with the Dreyfus affair, when you say you 
learned that there are times when an injustice to only one man 
deserves to bring things to a halt. In Iran today, there is an 
injustice, not just to those being held in Evin Prison, not 
just to the American you speak to, but to a whole society. How 
do we empower that society? I don't think it is with this 
agreement, because I think this agreement, in fact, empowers 
the IRGC and the Ayatollah. But how do we empower those people?
    Mr. Wieseltier. Let me say four quick points about that. 
Thank you for your remarks.
    The first one is this. If it is indeed the case, as the 
defenders of the deal say, that it is in the rational interest 
of the Iranian Government to renounce nuclear weapons, and if 
it is indeed the case that the Iranian regime is the rational 
actor that those defenders describe, and if it is indeed the 
case that the Iranian regime would like to be reintroduced into 
the so-called community of nations, then we set our goals too 
modestly; then we set our goals too modestly. We had certain 
prior assumptions about Iranian flexibility, and it is not at 
all clear to me that they were ipso facto true. And those 
assumptions were based on a whole variety of things having to 
do with the administration's larger views about foreign policy 
and America's role in the world that we can talk about at 
another time or later.
    Secondly, it is very important to remember that 
democratization is not an event, it is an era. It takes a very 
long time. It took a long time in Central and Eastern Europe 
under communism. It took a long time. One of the mistakes or 
illusions created by the Iraq war was that we can simply send 
in a bunch of troops, you know, fly our Air Force, and we would 
have a parliamentary system overnight. That is not how a 
society living in tyranny and repression becomes free. And when 
you emancipate people, when you make them free, you emancipate 
the actually existing people, and those are people who have not 
had experience of democracy. So we must keep our heads and 
regard this as a policy for the long term.
    Thirdly, there are many instruments available to the United 
States in the support of democrats and dissidents everywhere. 
This debate, not in this room right now, but generally the 
Iranian nuclear debate, the administration's approach to this, 
has been a terribly Manichaean picture in which it is either 
this particular deal or a catastrophic war. The United States 
is the greatest power in the world with a vast variety of 
instruments that it can deploy at all levels, soft power, soft 
versions of hard power, and even hard versions of hard power. 
But, you know, we are not helpless in this.
    And fourth, it is very important to understand that when I 
say that we must support dissidents and democrats in countries, 
when I talk about democratization, I mean that we must support 
the forces where they already exist indigenously. One of the 
problems with our Iraq strategy was that we went in to topple a 
dictator who, God knows, was illegitimate and dangerous and had 
used chemical weapons against his people, whatever one thinks 
about that war. But we did not go in to support an indigenous 
force. In Syria, there was an indigenous force. I fear it may 
have been wiped out. The administration may have actually have 
fulfilled--its inaction may have fulfilled its worst 
prophecies.
    In Iran, Iran is, of all of the examples, Iran is a state, 
a tyrannical state with a social basis for an open society if 
ever there was one. And there is a robust community of 
democrats and dissidents in Iran that the United States, I 
think, has not only a moral obligation to support, but also an 
intensely strategic obligation to support, because I can think 
of no greater prize, geopolitically, in the region and beyond, 
than a change of regime in Tehran.
    Chairman Royce. Thank you Mr. Wieseltier.
    My time has expired. We are going to Mr. Eliot Engel of New 
York.
    Mr. Engel. Thank you, Mr. Chairman.
    In my opening remarks, I mentioned that one of the things 
that troubled me about this agreement was the fact that the new 
U.N. Security Council Resolution 2231, which accompanies the 
JPOA, lifts the arms embargo on Iran after 5 years and 
ballistic missile sanctions after 8 years. So I would like to 
ask Admiral Fallon, what are the strategic implications of 
lifting these particular sanctions, and are there redundant 
measures in place that the United States can rely on that will 
prevent Iran from introducing further instability into the 
region?
    Admiral Fallon. Mr. Engel, who knows? We could speculate 
all day long. There has been an awful lot of that about every 
aspect of this deal.
    In my view, the most important thing is that Iran is very 
close, by pretty much consensus, to achieving a nuclear weapon. 
If they do that, I guess step back for a second and put this in 
perspective. There is no comparison in total power between Iran 
and the United States. They are not in the same league with us.
    However, they acquire a nuclear weapon, it gives them 
significant leverage to blackmail us and others against doing 
things in this region or other places that could be 
destabilizing.
    So it seems to me that you stack the priorities in what we 
would like to do here, keep the weapon out of their hands now 
is, in my view, far superior to the others, and that is what 
the objective is here. So there are all kinds of other things. 
If I had a clean sheet and could have all my desires, we 
wouldn't have included any release of ballistic missile 
technology or access to other weapons and a long list of things 
that, from our perspective, we would like to see implemented. 
That is not realistic, absolutely not realistic, in my opinion.
    So what we are trying to do is to forestall the imminent 
potential of a nuclear weapon. There are only two ways to get 
there by my understanding of the physics. One is through 
uranium. We have removed, if this plan is agreed to and 
executed, removed that pile of uranium, enriched uranium. And 
the second is plutonium. And if the plant is not functioning, 
it is not very easy or likely they are going to build another 
heavy water plant any time soon.
    So to me, when you look at the alternatives, give me a real 
one. I have heard a lot of talk. Most of it is speculation and 
handwringing about what could happen. Who knows what could 
happen? But think of a couple things, if you would please, 
Members. Fifteen years, that is almost a generation, and that 
is basically what the deal is trying to buy, pushing this off 
that amount of time.
    The flip side, I don't know of many people that are 
particularly thrilled with the leadership in Tehran. I 
certainly have no love for them whatsoever based on observed 
behavior up front and personal. But 15 years from now, Khamenei 
is going to be, if he is alive, 91. Do you think he is going to 
be ruling that country? This is a country where 50 percent of 
the population is under the age of 30. And you can feel it from 
here, they want change.
    So who knows what is going to happen? I think we could 
speculate all day long. It seems to me that we ought to be 
focused on the most important thing, and that is let's stop the 
drive to a nuclear weapon now.
    Mr. Engel. And if anyone else cares to answer, it would 
seem to me, though, if we are looking to help the Iranian 
people have a more democratic regime, are we more likely to do 
it when Iran is awash in cash as this agreement will do, or are 
we more likely to have it if the Iranian economy, currency, and 
other things are struggling because they have a hold on moneys 
that they have?
    Vice Admiral, General, Leon?
    Admiral Fallon. Would you like me to take a shot at that 
first?
    Mr. Engel. Sure.
    Admiral Fallon. So the amount of money has also been 
debated, who knows, $50 billion or $100 billion, but in the big 
scheme of things, Iran seems to have done a pretty fair job of 
funding their ongoing activities around the world that we find 
pretty nefarious. So I am not sure what this infusion of cash 
might result in, but I know one thing, it is almost certain, 
and that is if this place opens up and you get the kind of 
economic activity that appears to be poised to--I mean, try to 
get a flight into Tehran from some European capital today--this 
country is going to open up.
    What that means for the future remains to be seen. But the 
idea that it is going to stay a closed society I don't think is 
going to happen. So this offer is an opportunity to change 
that.
    Mr. Engel. Leon.
    Mr. Wieseltier. I just wanted to make a remark about this 
notion that one hears everywhere now that one must support the 
deal because there is no alternative. I never quite understood 
this, this point. In the first place, if a plan does not 
furnish a solution to the problem that it sets out to solve, 
then it is itself not a real alternative and not a satisfactory 
alternative. The debate is about whether or not it does. But 
the idea that because it is the only plan there is we must 
support it makes no sense to me if we come honestly to the 
conclusion that it is a bad plan.
    And secondly, the idea that the argument that there is no 
alternative, I mean this deal is a respite of 10 years and 15 
years, and we are told there is no alternative. But the same 
could have been said about a respite of 7 years and 12 years, 
or 3 years and 8 years, or 6 months and a year. The idea that 
there is no alternative could be used to justify any deal.
    I think that the most important--the obligation we have is 
to judge the deal on its own merits, considering all its 
dimensions. And if we conclude that it is a bad deal, then I 
think people have to vote on their conscience about it.
    Mr. Engel. I see my time is up, Mr. Chairman. Thank you.
    Chairman Royce. Thank you Mr. Engel.
    Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman and the 
ranking member.
    I want to follow up on the excellent points that they had 
made. We have heard from some of our witnesses today that as a 
result of this influx of sanctions relief cash, which Mr. Engel 
was talking about, and strengthening the economy, that Iran 
will being more powerful and more militarily capable. Of 
course, this also means that Iran will have more money to 
support terror and its proxies like Hezbollah and Hamas.
    If Iran right now and up to now has found the money even 
under these tightest of sanctions to fund its support for 
terror, do you believe that this influx, this new influx of 
funds will really go to help the domestic economy like the 
administration has been portraying?
    And furthermore, how can an emboldened Iranian military 
undermine our interests in the Gulf and in the Strait of 
Hormuz?
    We have also heard that as a result of this deal, we will 
have to increase cooperation with our partners in the region 
militarily. And how would we do that? Through increased arm 
sales. But this can prove to be quite problematic. Is it 
possible that allowing Iran's military capability to build up 
and by us simultaneously arming Gulf countries in the region to 
the teeth, could this actually lead to another war and also 
make it more difficult for the U.S. to be able to respond? And 
how is it in our national interest in the region to have a 
conventional arms race and a nuclear arms race now that these 
countries have seen us allow Iran to keep its capability to 
enrich uranium? And how would this arms buildup threaten 
Israel's security and Israel's qualitative military edge?
    And I agree with you, sir, when the administration is 
calling those of us who oppose this deal, which is a bipartisan 
majority of Congress and the American public, warmongers, yet 
if this deal goes through, the United States will be 
responsible for the mass proliferation of conventional and 
nuclear weapons in the region. Lots of questions.
    General.
    General Wald. I will answer that.
    First of all, I think your points are excellent. I would 
like to just make a personal comment. I don't think there would 
be anything better for us today in this world if we could 
ensure Iran didn't have a nuclear weapon. I don't like that 
idea at all.
    The concern I have about the deal is that we haven't talked 
about the after the deal what we are going to do. And the idea 
that Iran now is going to have $100 billion, $50 billion, I 
don't care, $50 billion is a lot, a lot more than they have 
now, to modernize their capability--and they will--is 
bothersome to me as a military person.
    Number two is, I think the idea that this deal is going to 
preclude war, I don't think the deal or not a deal is going to 
preclude war. I think it is a matter of how Iran acts. And they 
have demonstrated the desire to cause problems in the Middle 
East. This issue with Hezbollah that the ranking member brought 
up is not trivial. We have heard it is 100,000 missiles that 
are pointed at Israel.
    Number two is, modernizing their intercontinental ballistic 
missile or regional missile capability is going to be hugely 
problematic for not just the GCC states, but the United States 
as a partner.
    Verification. I don't know how we are going to really 
ensure that we have a good verification regime with the way the 
wording of the agreement has been stated. The fact that they 
are going to have 24 days to do whatever they want, the fact we 
can't go to their military facilities. I mean, we are going to 
need a strong verification regime that we do not have, and we 
should ensure that before we do this. And, again, you can say 
what you want to. Colin Powell was on TV Sunday talking about 
the Iraq invasion based on intelligence. We didn't have a clue 
what Iraq had at that point. And we were putting a lot of 
effort into it. And you don't think we have put a lot of effort 
into Iran? We don't have an idea for sure what they are doing. 
And they will cheat. They will cheat. There is no doubt about 
it.
    Number three is, I think we need to continue to increase, 
as you pointed out, our support to our allies in the region, 
the GCC states, and we need to expect them to have us be 
participatory in a regional missile defense regime with them, 
not just part time, full time.
    Israel. We need to beef up Israel's air defense capability. 
They shouldn't have four or five Iron Domes. They ought to have 
30 Iron Domes. And the fact of the matter, unless Iran is 
deterred, unless Iran is deterred, they are going to cause 
havoc in the region. They don't just want to be a nuclear 
power, they want to be a regional hegemon. Having them get $100 
billion to modernize their capability is a bad idea.
    Ms. Ros-Lehtinen. Thank you, sir. I agree.
    Thank you, Mr. Chairman, Mr. Ranking Member.
    Chairman Royce. Thank you.
    We now go to Mr. Brad Sherman of California.
    Mr. Sherman. Thank you.
    Mr. Chairman, a lot of discussion, is this a good deal, is 
this a bad deal? It is not our job here to grade the President 
of the United States or his predecessors. That is the job of 
talk show hosts, pundits, ultimately historians. Our job here 
is to guide the House of Representatives, how can the House 
make a positive contribution to this Nation's foreign policy 
under today's conditions? Not the conditions that existed a 
month ago or a year ago.
    A month ago when we left Washington some believed that the 
House and the Senate might immediately affect our foreign 
policy under the Corker bill by passing a binding resolution of 
disapproval over the President's veto and preventing the 
President from delivering some portion of the sanctions relief 
promised in Vienna. Whether that was ever in the cards then, we 
know it is not in the cards now. The House cannot prevent the 
President from delivering the sanctions relief called for by 
the agreement. Thirty-four Senators, with seven to spare, have 
already announced their position.
    Now, we might want to live in a fantasy world. In my 
fantasy world the Ayatollah is about to convert to 
Christianity. In the fantasy world of others, a joint 
resolution of disapproval is about to be passed over the 
President's veto by both Houses by a two-thirds majority. We 
are not here to live in a fantasy world.
    What are the points we can all agree on? Believe it or not, 
there are points, and this has been a contentious debate, we 
can all agree on.
    First, as I have pointed out, this deal is going to go into 
effect for the next year and a half. Whether it goes through 
after a veto or before a veto, the world will not remember for 
very long.
    The second thing we can all agree on is that the nuclear 
safeguards in this deal are much better in this decade than 
they are next decade. We know what America's foreign policy 
will be until 2017. We do not know what is in our national 
interest in 2017 or 2027. As Admiral Fallon said, there is just 
no way to know.
    So the greatest contribution this House can make is to 
preserve America's freedom of action dealing with circumstances 
we cannot predict. Even if you love this deal, the greatest 
proponents don't say there is a guarantee that it represents 
our best national interests next decade. And even if you hate 
this deal, you do not know what will be in our national 
interest next decade. What we need is freedom of action.
    The threat to our freedom of action is that we are the good 
guys. We follow international law. If something is binding, we 
feel bound. The House can make one contribution, and that is to 
demonstrate to the American people and the world that this is 
not a binding agreement. Now, that has the additional advantage 
of being true. It is not binding on America under the United 
States Constitution. And in the Vienna Convention on the Law of 
Treaties, this is the lowest possible executive handshake. It 
is not a ratified treaty, it is not an unratified treaty, it is 
not an executive legislative agreement.
    So we have got to have the clearest possible message that 
this agreement is not binding on the President and not binding 
on Congress.
    We are scheduled to deal with a resolution of disapproval, 
which as I pointed out will not, even if it passes, and that is 
problematic. In the Senate it will be vetoed. Ultimately it 
will be defeated, maybe only by 34 percent of one house, but it 
will be defeated.
    There are three other approaches we could take that would 
make a clearer statement. We could have a concurrent resolution 
of disapproval that doesn't go to the President's desk, we 
could have a House resolution of disapproval that doesn't even 
go to the Senate, or we could vote on, as provided in the 
Corker bill, on a resolution of approval and it would be voted 
down. Those would be clearer statements than where we are 
headed now, which is ultimately a victory for the proponents of 
the deal.
    But I don't run the House. None of us on this side of this 
aisle run the House. We will vote on those matters that are 
brought to the floor, and we have got to vote in a way that 
preserves freedom of action. The President has the freedom of 
action for the rest of his term. That is guaranteed by the 
votes in the Senate. Now we have to preserve freedom of action 
for future Presidents under future circumstances.
    I yield back.
    Chairman Royce. We go now to Joe Wilson of South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman. And, Mr. Chairman, I 
want to thank you, I want to thank the ranking member Eliot 
Engel, the courage that you have had over the last month as the 
American people find out more about this deal, they find out 
how dangerous it is.
    The thought that there would be self-inspection, it is 
inconceivable, of putting the American people at risk, putting 
the Middle East at risk, putting our military at risk. I have 
four sons currently serving in the military today, so I take it 
personally that indeed our American military is put at risk by 
working with a country that provided the IEDs that killed so 
many of our troops.
    And how we can forget 1983, the attack on the Marine 
barracks in Beirut, which was a direct attack by Iran killing 
nearly 300 marines. And people should know that that bomb 
explosion was the largest explosive device since Hiroshima and 
Nagasaki.
    And then just 3 years ago this regime, a murderous regime, 
was attempting to blow up and kill the Ambassador from Saudi 
Arabia to the United States.
    And so for us to be dealing with Islamofascists as if they 
are trustworthy is utterly inconceivable.
    There has been one highlight to me, though, of this debate. 
Right here I had an opportunity to be here with Senator Joseph 
Lieberman. This is bipartisan. He expressed a heartfelt belief 
that the deal should be defeated and that it should be 
overridden. And I had the opportunity to be with him in New 
York.
    And so as I think back to where we are. And, General Wald, 
a concern that I have is that with the lifting of the military 
sanctions, in addition to unfrozen funds, estimated, let's take 
the numbers, can you imagine, $50 billion, $100 billion, $150 
billion? That is a lot of money. What will this do for Iran's 
well-documented support of terrorism and destabilization across 
the globe? Could you please speak to these concerns and what 
impact this will have on the overall security chaos that is 
currently in the Middle East? And how does this affect American 
families at home?
    General Wald. Thank you. I go back again, I agree with your 
comments. I think from my perspective as a military person who 
spent a lot of time in the Middle East, I was in charge at the 
beginning of the Afghan war that I thought was pretty 
successful. I have been to the Middle East 45 times. I have 
close friends there. I have been to Israel 40 times.
    My concern about the deal is that I don't believe we have a 
strong verification process, and that worries me. And if we 
don't have a strong verification process, something that isn't 
necessarily even that much greater than we have today, that is 
not a good thing.
    On the other side, for that ability, for Iran to have this 
lifting of the sanctions, they are going to have the money to, 
as you point out, modernize their military. Their military has 
been problematic for us anyway over the last 30 years. I mean, 
back in the 1990s we had a reflagging of friendly shipping 
through the region called Earnest Will. The United States Navy 
escorted every ship through the Straits of Hormuz because of 
the threat of the Iranian missiles, the scuds from Bandar 
Abbas.
    They don't have the ability to actually threaten our air 
today because they haven't had the ability to modernize their 
air capability. They don't have surface-to-air missiles that 
are worth a darn. With this money they are going to have 
released, they will be able to modernize their air defense, as 
Admiral Bird mentioned, their anti-access, they will be able to 
modernize their air force, they will be able to modernize their 
missile capability. I will guarantee you that they are not 
going to sit idle in the Persian Gulf.
    And the irony is we are actually putting ourselves in a 
more difficult position militarily by allowing themselves to 
modernize. We don't have a verification regime that I think 
would pay that off. So that is my concern.
    Mr. Wilson. And I also am very, very concerned, Admiral 
Bird, it is my understanding that the funding for Hezbollah 
with the missile capability, the rocket capability to strike 
Israel, that it is currently being funded at $200 million a 
year. So if you have $50 billion what would be the consequence?
    Admiral Bird. Thank you, Mr. Wilson. And I agree with what 
General Wald said.
    As Admiral Fallon and other members have pointed out, we 
are very unsure as to what Iran might do and what the breakout 
period is with respect to nuclear weapons. What we are not 
unsure about is what they intend to do with additional 
resources. They have more or less announced that they see this 
deal very narrowly, only dealing with their nuclear 
infrastructure. My sense is it is a delay of game until they 
ultimately get a nuclear weapon.
    What it is not a delay of is the money they will fund 
toward Hezbollah, to their military capabilities. And given a 
total expense of $16 billion for their military defense, any 
infusion of capital to the tune of $50 billion or $100 billion 
would be dramatic.
    At the same time, the technology associated with ballistic 
missiles, asymmetric threats that I spoke of, is increasing 
somewhat organically to Iran, but certainly on the export 
market. So there is no doubt that Iran would get greater access 
to arms, ballistic missiles, submarines, attack aircraft, and 
the like, and funnel it to Hezbollah, as well as to their 
mainstream navy and Armed Forces, and be very problematic for 
the United States Navy, for the United States military in the 
Gulf.
    Mr. Wilson. Thank you very much.
    Chairman Royce. Mr. Albio Sires of New Jersey.
    Mr. Sires. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    And thank you for being here.
    I want all those people that are very concerned about the 
time, the 10 or 15 years, as I look at this region, a region 
with thousands of years of history, they have seen countries 
come and go, and I look at these hardliners in Iran, and they 
are saying: Well, this deal may go, but we are going to be here 
after this deal is done. And I can just see them positioning 
themselves when this is gone.
    When you spoke about the Ayatollah in 10, 15 years he is 
going to be 90, 91 years old, well there is a succession, and 
all these countries have it. I look at China hardliners. There 
is a succession there. I look at some of these other countries, 
Vietnam. There is a succession there. I look at my own country 
where I was born, Cuba, there is a succession there. So to me 
10, 15 years is the blink of an eye in a part of the world that 
has been around for thousands of years.
    And furthermore, I really do think that all these other 
countries around that do not trust Iran, there is going to be a 
nuclear arms race, or there is going to be an effort, because 
they do not trust Iran that eventually they are not going to 
develop a bomb. And they have a history of not trusting each 
other.
    So to me, I don't get it. And I hate the fact that when I 
say I have these concerns, people somehow label me as a 
warmonger. I mean, is most of America a warmongering country?
    So do you anticipate that this is going to lead to an arms 
race, Mr. Wieseltier?
    Mr. Wieseltier. I think that, you know, in life time is a 
very strange thing. Some things feel long and some things feel 
short. I think that 15 years is a young person's idea of a long 
time. I mean, I think it is no time at all.
    Moreover, I think that the burden of proof about the nature 
of the future character of the Iranian regime and the future 
behavior of the Iranian regime falls on those who believe for 
some reason that it is going to change and moderate itself. And 
I see no reason.
    I think this regime is intently committed to its own 
preservation. It believes, as I said, that it--it actually 
believes that it rules by divine sanction. I believe that the 
Revolutionary Guards, which as someone noted are intimately 
involved and corrupt a great part of the Iranian economy, is 
also intently committed to its own fascistic control over large 
sectors of Iranian society.
    These are not actors that will move aside voluntarily or 
who will one day read Jefferson and Madison and come to their 
senses. That is not how it is going to happen. The only way it 
will happen is because Iranian society is full of many good, 
liberal-leaning--"liberal'' in the larger term--Western-
leaning, democratizing people. There is, as I said, a social 
basis for a new regime in Tehran. A new regime in Tehran is not 
something that the United States can or should bring about on 
its own, but it is something that if there is movement within 
the Iranian people, within the country of Iran, it is something 
that I believe American foreign policy must make it one of its 
priorities to support.
    We have to keep our heads here. It is going to take a 
while. But there were people for a very long time who told us 
that the Soviet Union was immortal, it would not fall. And 
indeed it did fall, not because we brought it down, but because 
we helped.
    Mr. Sires. But it took a long time.
    Mr. Wieseltier. There is no way around this. There is no 
fast forwarding----
    Mr. Sires. No, I agree with you.
    Mr. Wieseltier [continuing]. There is no fast forwarding 
history. What worries me about this deal and about certain 
other aspect of the Obama administration is that we have gone 
backwards in this regard and not forward.
    Mr. Sires. Thank you.
    I just want to ask, how do you justify the fact that most 
of the country does not agree with this deal.
    Admiral Fallon. Well, the first thing is we have all kinds 
of attributional statements that I have heard here today and in 
the media that I think have little basis in fact. They are 
opinions. Everybody has an opinion.
    If I could go back to Leon on one thing, just so you don't 
characterize me in the no alternative group, we have lots of 
alternatives. My issue is show me one that actually might 
achieve something that this thing looks like it has got a 
pretty good chance to do.
    I would invite us to step back from this a little bit and 
look at the bigger picture. This plan is just what it is, a 
plan, it is long, 149 pages, whatever it is. This is not the 
end of the world. This is not a ship casting off and going to 
sea never to be seen again. This is just a step in a process. 
And as someone who ground his teeth and shed more than a few 
tears at my people who were killed as a direct result of 
Iranian actions in Lebanon, in Iraq, this is not some abstract 
nonsense.
    But at some point in time, we have got to, in my view, look 
at the bigger picture. And the bigger picture is this region, 
the Middle East, is very unstable, it is very insecure. And the 
thing that appears to instigate the most instability is the 
hammering concern about Iranian nuclear weapons.
    And so I invite you to look at the technical aspects of 
this thing. It is going to be very difficult to continue a 
uranium enrichment program or plutonium. How are they going to 
get the bomb over us? Is it going to drop out of the sky? Yeah, 
they could. I mean, you could speculate all kinds of things. 
They could get one from Pakistan.
    But I think the bigger issue here is we need to focus on 
the most immediate thing and recognize that it is going to be a 
many-step evolution. The implementation of this thing is really 
hard. You think this is hard? In my view, start working through 
the details of the implementation. And this is where the 
Congress, in my opinion, can really help.
    So at some point in time in every dispute, it seems to me, 
if you are going to make progress, you have got to suck it up 
and say, you know, I don't like this. So the comment that 
Congressman Wilson made, have we forgotten the Marine barracks? 
I sure haven't. I was there.
    Chairman Royce. Time has expired.
    We are going to Mr. Darrell Issa of California.
    Mr. Issa. Thank you, Mr. Chairman.
    General Wald. May I make a real quick comment on that last 
point real quick before we leave it?
    I think it is ironic that Admiral Fallon, who is a friend 
of mine, would say that the biggest issue here is this 
instability in the Middle East, and the nuclear weapon is an 
issue but that other parts of it are even more important. And 
in fact this deal is going to give Iran the ability to make the 
Middle East a lot more unstable. And it is ironic to me that 
everybody that says if you don't like the deal you are a 
warmonger, you want to blow up Iran, I would like to avoid any 
conflict. But I will guarantee you, Iran with the money they 
are going to get from the sanctions lifting, is going to change 
the dynamic in the Middle East significantly.
    And I will tell you another thing, and Congressman Royce 
know this. Robert Mugabe, we keep saying he is going to die any 
day. He is going to live forever. I mean, the idea you are 
going to wait until somebody dies to change some kind of policy 
is not a very good way to go.
    Chairman Royce. We have got to go to Mr. Darrell Issa of 
California. I am sure we will come back to some of these 
arguments.
    Mr. Issa. Thank you Mr. Chairman. I have lived to ask my 
questions.
    How many of you on the panel know or have visited the 
Trinity site in New Mexico? Okay. So for those who haven't 
visited it, that was the first successful nuclear explosion, 
occurred in July 1945.
    How many of you know how many years after we began the 
Manhattan Project that bomb went off? Well, August 13, we just 
had the 73rd anniversary. It was less than 3 years at a time 
when computers mostly ticked, because relays were clicking, 
that it took us only 3 years to produce a nuclear weapon. That 
concerns me every bit as much as 37 years of ayatollah after 
ayatollah murdering Americans and our allies around the world 
and spreading terrorism.
    So I want to ask just a couple of questions. And, Admiral 
Fallon, you generals and admirals are all friends up there, but 
I consider you a friend, but today I have got to ask you some 
tough questions. So I will put it this way, Bill: Have you read 
all the side agreements?
    Admiral Fallon. I am not sure what you mean by side 
agreements.
    Mr. Issa. Well, the agreements that are not part of the 
deal that is being presented to Congress.
    Admiral Fallon. If you are getting at the two so-called 
secret protocols----
    Mr. Issa. Yes, sir.
    Admiral Fallon [continuing]. I guess, no I haven't read 
them.
    Mr. Issa. So can any of us make a fully educated 
understanding of this deal without knowing the deal in its 
entirety? I am not saying that every part of it is something 
that Congress has to oversee, but whether it is the IAEA or any 
other side agreements that are there, if we are going to 
approve what is effectively a treaty, why is it that anyone can 
reach a conclusion if we haven't seen the entire deal? And I 
will ask each of you that question.
    Admiral Fallon. Okay. First, if I could comment, it is not 
a treaty----
    Mr. Issa. It is effectively a treaty.
    Admiral Fallon. It is not a treaty.
    Mr. Issa. Okay. Let's put it this way. It effectively 
changes our role in a way in which we treat an absolute enemy 
of this state who still occupies our Embassy in Tehran with its 
foreign students and Revolutionary Guard types, they still 
occupy that illegally as we speak today. They are still a 
terrorist state. They are still a state that doesn't recognize 
international law. And we now are going to allow them 5 years 
from now to get ICBMs. So the answer to your question that you 
asked rhetorically is, how are they going to drop the bomb? 
Well, in 5 years they are going to drop the bomb with an ICBM 
they are fully allowed to buy.
    Admiral Fallon. Well, I would be very much more concerned 
about the coercive effect in the next year or 2 years. But back 
to your original question, this Additional Protocol, I don't 
know what the exact language is, but I think what is noteworthy 
about it is that this is a voluntary expansion, as I understand 
it, of Iran agreeing to allow the IAEA to look at things that 
heretofore had not been looked at.
    It might be noteworthy that this is not a typical thing, 
and there is a separate agreement on Parchin, that is the 
second part of it. And why would we be interested? Why the 
IAEA? You know why, because of bad behavior in the past.
    Mr. Issa. Okay. Let me switch my question----
    Admiral Fallon. Nobody has agreed to it before. This is the 
first time----
    Mr. Issa. First of all my understanding is all they are 
agreeing to do is what they already agreed to do by protocol 
for years and refused to do. The sites they are prohibiting are 
sites they have prohibited in violation of agreements they 
already signed.
    But let me just ask the fundamental question, and I was in 
the Sinai over the break, I saw the Boko Haram problem in 
Nigeria. These are areas outside of what we talk about every 
day, but they are part of the spreading Islamic activities on 
both the Sunni and Shia side that are beginning to dominate 
more and more of the world.
    So seeing all of that, I only ask one question: Why should 
Congress agree to any deal that allows one of the major 
protagonists to have $140 billion more that is clearly going to 
be used to spread their agenda, their Shia caliphate, in 
opposition to a Sunni caliphate, in opposition to the Western 
world agreement to let people live in peace, including the 
Christians in the Arab and Muslim world?
    I will just go down the line. General Wald.
    General Wald. We shouldn't. Period.
    Admiral Fallon. The answer to that one is that we have had 
36 years of zippo except head butting. At some point in time it 
is in our national interest to try to do something to stabilize 
this region. We don't like these guys, they don't like us, we 
don't trust them. What else is new? But at some point in time, 
we have got to actually take a step forward----
    Mr. Issa. I want to quickly just get through the other two. 
Where do you stand on this, Admiral?
    Admiral Bird. We should not.
    Mr. Wieseltier. My own view is that whereas one should take 
risks for peace, one shouldn't be played for a fool. And I 
worry that we are being played for fools here because the 
windfall of this money. I mean, these are matters of history. 
We know what the Iranian regime believes in. We know how it has 
behaved beyond its borders. I see absolutely no reason to 
believe that this windfall will not impact its adventures 
beyond its borders.
    Mr. Issa. Thank you.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Issa.
    So we go now to Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman.
    Admiral Fallon, I just wanted to follow up on that last 
exchange. When you said that at some point we have to try to do 
something to stabilize the region, it seems to me there is just 
not a response to the very real concern that I think critics 
and supporters of the deal acknowledge, that money flowing to 
this regime, some portion of it is going to go to Hezbollah and 
Hamas and other terrorist groups. They will use that to further 
destabilize the regime.
    And so we can have a debate about what happens at the end 
of this deal, and I agree with Mr. Wieseltier that this is 
really just a pause, but that is a separate issue. In the short 
term, the money, the lifting of the arms embargo, the ability 
to conduct ballistic missile research, all of that will make 
the region I think less secure. It will destabilize the region, 
number one.
    And number two, from an arms control perspective, for all 
of us who really are concerned about nuclear proliferation, I 
fail to understand how once this deal goes forward, how it is 
that if the Saudis or Turkey or Egypt come to us, come to the 
United States and say, ``You know what, we just want that, we 
will take the Iran deal, we will take all of the limitations, 
the limits on centrifuges, the duration, but we will take the 
deal that at the end of 10 years or 15 years gives us the 
ability to have an unlimited nuclear capacity,'' how do we 
possibly say no to that? I don't understand how we could 
possibly reject that once this deal is in place.
    Admiral Fallon. Well, I am not sure to your last point that 
anybody is lining up to----
    Mr. Deutch. It is not whether they are, it is whether they 
could. That is always the debate about nuclear proliferation.
    Admiral Fallon. You can speculate all day long about what 
could. Many things could. But a couple of realities here. No 
sanction relief at all until Iran demonstrates that the uranium 
and plutonium are done.
    Mr. Deutch. Admiral Fallon, I am sorry, I only have a 
couple of minutes. And I am going to have to go, I want to 
change in a second. But I understand what has to be done. I am 
very familiar with the deal. But the question is, when they 
satisfy their requirements to get access to billions of 
dollars, that will destabilize the region.
    Admiral Fallon. In the near term, who knows what they are 
going to do with the money. It wouldn't surprise me at all. 
But, you know, one of the ironic things about this----
    Mr. Deutch. Okay. That is all I wanted--no, no, that is all 
I wanted to confirm.
    Admiral Fallon. Yeah, but, you know, taking this thing in 
isolation----
    Mr. Deutch. No, no, Admiral Fallon, Admiral Fallon, I only 
have limited time.
    I was just hoping someone would finally acknowledge that. 
We can have a debate about this deal and long term where it 
goes. In the short term there will be more ability, a greater 
ability for Iran to destabilize, and there will be more 
violence. That should be our concern. We at least have to 
acknowledge it. I appreciate it.
    Mr. Wieseltier, I want to get back to your point about the 
regime, the anti-American, anti-Semitic, homophobic, 
misogynistic. What should be our role----
    Mr. Wieseltier. Speaking politely.
    Mr. Deutch. I understand, and that was only a short, brief 
listing of what you included. What should our foreign policy 
look like in a way to make it clear that a regime which makes 
being gay punishable by death, for example, a regime that--
well, you have listed them all--I mean, how do we make clear, 
especially at this moment as this deal is going forward, that 
we are not just hoping that the regime changes but that we very 
clearly stand on the side of the Iranian people and not this 
difficult and horrible regime?
    Mr. Wieseltier. You asked the important question. We don't 
make it clear, of course, by immediately rushing to war with 
this regime. We begin to make it clear by including the 
critique of this regime and the principles upon which that 
critique would be based, meaning the full-throated defense of 
freedom, no matter how many times George W. Bush used that 
word, the full-throated defense of freedom, the notion that the 
United States will be on the side of people seeking freedom, 
the notion that there is a natural, democratic relationship 
between--a natural alliance, a natural relationship between 
democrats the world over and between democratic states the 
world over.
    We have in the last 6 years gone mute on these questions as 
a country. We have gone mute. We do not talk about freedom, we 
do not stand up to these dictators. We try to find realist--we 
specialize, we have a new specialty, not in inaction, but in 
inconsequential action. This is, I think, Obama's innovation in 
our foreign policy. And I think that verbally and at all levels 
of the instruments that I describe, the United States has to 
make it clear that it is the country to which all such people 
should look to as a source for hope and help, as a source for 
hope and help.
    We can argue about what kind of help. Those are interesting 
debates. The idea that it is not either in our interest or a 
fulfillment of our values to offer such societies no help and 
no hope, that seems to me completely untrue, completely untrue. 
Yeah. That seems to me completely untrue.
    I just wanted to add one thing to what my friend, Mr. 
Deutch, said to your earlier point, which is when we talk about 
the release of the sanction money and what I agree is the 
inevitable mischief that will ensue as a result of it, we could 
think of it a little differently. I would even be willing to 
consider the instability that came from the release of the 
sanction money if the stability that the nuclear deal brought 
about nuclear weapons would be real, would be long lasting, 
would be permanent. That would be an interesting discussion. 
And that would be a miserably difficult tradeoff, but it would 
be a tradeoff that it might be worth talking about, because the 
idea of an Iran that agreed to renounce nuclear weapons would 
be a strategic victory of the highest order.
    But in an agreement in which the Iranians do not agree to 
go that far, so that the nuclear instability remains, it is 
deferred, it is postponed, it is brought down, it is delayed, 
but remains historically, then the question of the impact of 
the released sanction money becomes even more urgent.
    Ms. Ros-Lehtinen [presiding]. Thank you very much, Mr. 
Deutch.
    We go to Mr. Weber of Texas.
    Mr. Weber. Thank you.
    This is for the panel. Basically the deal that is before 
us, when it was negotiated by Secretary Kerry and others, would 
it have been reasonable--and hopefully this is a yes-or-no 
questions for the four of you--would it have been, in your 
estimation, reasonable for the world's leading exporter of 
terror, has four of our hostages, in your opinion, gentlemen, 
would it have been reasonable to say, ``If you are going to be 
serious about getting back into the world community, world 
neighborhood,'' would it have been reasonable, General Wald, to 
say, ``The first thing you do as an act of good faith is give 
us our four hostages?'' Would that have been reasonable?
    General Wald. My job is to do military advice.
    Mr. Weber. Okay. Well, you have an opinion on it? If you 
don't, that is fine.
    General Wald. I will give you an answer, from a U.S. 
citizen: Absolutely.
    Mr. Weber. Okay.
    General Wald. I mean, we are supposed to protect our 
country and that should be reasonable.
    If I could just say one last thing on that real quick, and 
I agree with you, but when we started the negotiations we had 
objectives, I believe. And I think negotiation means 
compromise, means discuss. I get that. But you have to have 
certain core principles you ought to stick with. And I think we 
compromised that on the way down the path.
    Mr. Weber. And that is where I am going.
    Admiral Fallon, reasonable or not reasonable to say, ``As 
an act of good faith, give us our hostages''?
    Admiral Fallon. Probably not reasonable.
    Mr. Weber. Probably not reasonable.
    Admiral Fallon. Do you know why?
    Mr. Weber. No.
    Admiral Fallon. Because the priority is nuclear weapons.
    Mr. Weber. I am not really interested. I don't mean to 
sound disrespectful, I am running out of time.
    Admiral Bird. Very reasonable.
    Mr. Weber. I think so.
    Mr. Wieseltier.
    Mr. Wieseltier. I think that by not releasing the hostages 
as was their foreign policy in the region, they were defying us 
and they were making it perfectly clear that the nuclear 
agreement would not affect the rest of the----
    Mr. Weber. So we are debating with an enemy who has clearly 
demonstrated, somebody said over 36 years, by sticking their 
finger in our eye and killing Americans, that they don't care 
about us. They believe in a culture of death, whereas we 
believe in a culture of life. Okay.
    So when the administration goes in there and says they want 
the best deal, is it reasonable for them to say, ``We will walk 
away from a bad deal''? Was that reasonable? I think it is 
reasonable, wouldn't we all agree, if it was a bad deal they 
would walked away from it?
    We are fixing to give them back their money. The 
administration did not extract promises for them to, A, stop 
exporting terrorism, stop the rhetoric on the United States and 
Israel must be destroyed, to stop supplying weapons over to 
Assad in Syria, exporting terrorism if you want to get 
technical.
    So I don't think that is was reasonable when John Kerry 
said--and I have a letter from him here dated September the 
2nd, he talks about need to vote for this bill and all these 
good things are going to happen. And then he goes into on page 
2 of this bill, and he basically defines, well, we are going to 
plus up Israel's military capability, we are going to plus up 
people in the region, their military capability.
    Now, can you say arms race? Can you say that the 
destabilizing of that region is not going to get better, it is 
going to get worse? And to my friend Ted Deutch's comments 
earlier about if these other countries come to us and say, ``We 
want nuclear power,'' how do we tell them that we have an 
administration who will not give energy companies over here a 
permit to build a nuclear power plant, but they will take 
American tax dollars and build one for our enemies?
    Gentlemen, I want to submit to you that is not reasonable. 
John Kerry and my company, in my estimation, didn't use reason 
to get to this position.
    And so I understand the futility of thinking that somehow I 
can--and those that support this deal, I am sorry if this 
sounds crass, if they have bought into that hook, line, and 
sinker--we can't reason somebody out of a position that they 
didn't use reason to get into.
    Yes or no, General Wald, bad deal?
    General Wald. Again, I am not a politician. I will just say 
from a military perspective this is not putting us in a better 
position.
    Mr. Weber. I am going to get to a point.
    Admiral Fallon, I take it you think it is yes because you 
say we have got to do something after 36 years.
    Admiral Fallon. I said given the alternative.
    Mr. Weber. War is not the only alternative. We should have 
negotiated from power and strength.
    Vice Admiral Bird?
    Admiral Bird. Yes, sir, I think it is a bad deal.
    Mr. Wieseltier. Bad deal.
    Mr. Weber. Bad deal.
    I don't buy the idea that somehow war is the only other 
alternative. If you go back to World War II, Hitler violated 
the Treaty of Versailles in 1935 and began to plus up his 
military. The British signed a pact with him allowing him to do 
that, to rebuild the Luftwaffe, to rebuild their navy, and as a 
result the British had to withdraw from the Baltic area. We are 
in the process of doing the exact same thing with the Iranian 
regime.
    Madam Chair, I yield back.
    Ms. Ros-Lehtinen. Thank you so much, sir.
    Dr. Bera.
    Mr. Bera. Thank you, Madam Chairwoman.
    As the chairman stated, this is our 30th hearing on this 
topic. I have had multiple individual meetings with passionate 
supporters of the deal and folks that are very concerned with 
the deal. And individuals have asked me, ``How come you haven't 
taken a position?'' Because this is a very important 
negotiation and it is a very important crossroads, and there 
are both merits to this deal and there are shortcomings to the 
deal.
    And it is incredibly important, I think, as Admiral Fallon 
has pointed out. We do have to think about how we move forward, 
though, in terms of a very unstable region.
    The goal of this negotiation was to reduce or eliminate 
Iran's nuclear threat. As Secretary Kerry has pointed out, as 
multiple folks have pointed out both in classified and 
unclassified settings, at a minimum it does reduce the threat 
for 15 years. And in this hearing it has been pointed out Iran 
is fairly close to being a threshold state at this juncture, if 
they are not already a threshold state. So I think that is a 
goal that has been achieved.
    Goal number two, is there enough in this verification 
regime? I think, as Secretary Moniz spoke personally to me as 
well as in this committee, has indicated he is satisfied on the 
nuclear issue that there is enough in the verification regime 
that if Iran does cheat on the nuclear issue that they will get 
caught.
    Goal number three and a concern of mine was, is there 
immediate sanctions relief? Is there a signing bonus? Again, as 
Secretary Lew has pointed out both in this committee and 
privately, there is no immediate sanctions relief. There is no 
trust in this. There has to be verification. Iran has to meet 
its deal, its portion of the deal, before there is any sanction 
relief.
    So those are some of the positives that are in here.
    Now the concerns. Concern number one, I don't trust Iran. I 
expect that the Iranians will cheat, and they will likely cheat 
on the margins to test our resolve. And at this juncture I 
think it is incredibly important that both the United States 
and our allies have that resolve that when they do cheat we 
immediately hit them and send them a strong message. It may not 
be full sanctions being implemented, but that we send a message 
that this is not an acceptable behavior.
    As Ranking Member Engel pointed out in his testimony, at 
this juncture let's be pragmatic. The deal is likely to move 
forward. So let's make sure we as a body do what we have to do 
to make sure that we take the deal that is present and we send 
a strong message.
    Concern number two, Iran has not been a responsible nation. 
In fact, I think everyone on the panel, as well as all the 
members of this committee, understand that Iran has been an 
actor to destabilize the region. That is not what this deal was 
about in terms of sanctions against Hezbollah and others. I 
think most of us expect, as Iran's economy improves, they 
likely will continue to fund these terrorist organizations and 
maybe increase funding.
    We as Congress, as well as the administration, have to do 
everything in our power to reassure our allies, particularly 
Israel, to make sure that they have what they need to 
counteract what potentially is increased destabilization, 
increased funding to Hezbollah, et cetera.
    Concern number three is also making sure that we take 
advantage of these 15 years. Even folks that are against the 
deal understand that it does reduce the nuclear threat. We must 
put ourselves in a better position 15 years from now should 
Iran pursue nuclear ambitions that we, if we have to intervene 
militarily, if we have to intervene in other ways, that we are 
in a better position to do so.
    Admiral Fallon, I will ask a quick question because I am 
running out of time. I think we all agree that Iran has 
destabilized the region. What would you suggest that we do, 
both as Congress as well as the administration, to work with 
our allies to mitigate potentially what is increased 
destabilization?
    Admiral Fallon. Well, one of the things that we have tried 
as a Nation, and certainly our diplomats and commanders in this 
region, that I think would be most helpful would be to try to 
convince our allies in the area to work together, to cooperate 
with one another, to have capability that could be united in 
the event that Iran backtracks on these things.
    It has been a very, very difficult challenge. They each 
have their own interests, their priorities, and so forth, and 
it has kind of fragmented their reactions to Iran to date. They 
wring their hands, want help, but they have to help themselves.
    One of the key points here for me in my experience is the 
idea that we are going to go over there and straighten this all 
out, we are going to fix all this and they are going to, these 
countries, is nonsense. They are going to have to fix it. We 
just have to help----
    Ms. Ros-Lehtinen. Thank you, Admiral Fallon.
    Thank you, Dr. Bera.
    Mr. Brooks of Alabama.
    Mr. Brooks. Thank you, Madam Chairman.
    I have some questions I am going to ask each of you to, and 
I would appreciate if you would answer them with either a 
``yes'' or a ``no'' or an ``I don't know.'' They are very 
simple questions.
    The first one deals with have you read the bill. I am 
talking about House Resolution 1191, Public Law 114-17, 
commonly known as the Corker Cardin bill, but more formally 
known as the ``Iran Nuclear Agreement Review Act of 2015.'' And 
by way of reference, that is the bill that governs how Congress 
is considering this Iran nuclear agreement.
    General Wald, have you read it?
    General Wald. I haven't read the whole thing.
    Mr. Brooks. Admiral Fallon, have you read it?
    Admiral Fallon. Not the whole thing.
    Mr. Brooks. Vice Admiral Bird, have you read it?
    Admiral Bird. No, sir.
    Mr. Brooks. Mr. Wieseltier, you have read it?
    Mr. Wieseltier. Yes, I have read it.
    Mr. Brooks. Thank you.
    Now, for those of you who have not read it, and also to 
refresh your recollection for those who have, I am looking at 
paragraph (a)(1), which is a requirement imposed on the 
President of the United States by this agreement that the 
President signed: ``Not later than 5 calendar days after 
reaching an agreement with Iran relating to the nuclear program 
of Iran, the President shall transmit to the appropriate 
congressional committees and leadership the agreement, as 
defined in subsection (h)(1), including all related materials 
and annexes.'' And the agreement is, of course, the Iran 
nuclear agreement.
    So we have to go to another provision in the bill to find 
out what the heck the word ``agreement'' means. And so I turn 
to paragraph (h)(1), quote:

        ``The term `agreement' means an agreement related to 
        the nuclear program of Iran that includes the United 
        States, commits the United States to take action, or 
        pursuant to which the United States commits or 
        otherwise agrees to take action, regardless of the form 
        it takes, including any joint comprehensive plan of 
        action entered into or made between Iran and any other 
        parties, and any additional materials related thereto, 
        including annexes, appendices, codicils, side 
        agreements, implementing materials, documents, and 
        guidance, technical or other understandings.''

    So my question to each of you is, pursuant to this 
requirement, has the President properly submitted to the United 
States Congress all side agreements related to the Iran nuclear 
agreement?
    General Wald, as you understand the situation, has the 
President done that.
    General Wald. I have no idea.
    Mr. Brooks. Admiral Fallon, yes, no, or I don't know?
    Admiral Fallon. I believe that agreements that the U.S. has 
negotiated with Iran----
    Mr. Brooks. That is not what this says. It says side 
agreements with Iran and third parties.
    Admiral Fallon. That we have been a part of.
    Mr. Brooks. Have all of those been produced?
    Admiral Fallon. That we, the U.S., has been a part of.
    Mr. Brooks. No. That is not the requirement under the 
statute. All right.
    Vice Admiral Bird, do you know if all these side agreements 
with Iran and third parties have been provided to the United 
States Congress?
    Admiral Bird. I read Mr. Pompeo's editorial on the same 
thing. I do not know. I am not a lawyer. But I do think the 
Congress should review them all.
    Mr. Brooks. Mr. Wieseltier.
    Mr. Wieseltier. I don't know, but I have a hunch about what 
the answer is.
    Mr. Brooks. Well, with respect to the International Atomic 
Energy Agency's secret agreement with Iran, I will represent to 
you that that has not been presented to me as a Member of the 
United States Congress, and in talking to my colleagues, it has 
also not been presented to them by the Obama administration, 
which means in turn that the Obama administration has failed to 
comply with the very law that it asked the United States 
Congress to sign.
    So my next question to you, if you know--well, for time 
brevity I see that I have only got a little bit, over a minute 
left, I will answer this question myself.
    The question is, what is the effect of Barack Obama's 
failure to comply with the statute that he signed that governs 
our ability to review and/or approve this agreement?
    And if you go to paragraph (b)(3) of the agreement--excuse 
me, of the law--it says:

        ``Notwithstanding any other provision of law . . . 
        prior to and during the period for transmission of an 
        agreement in subsection (a)(1) and during the period 
        for congressional review provided in paragraph (a) . . 
        . the President may not waive, suspend, reduce, provide 
        relief from, or otherwise limit the application of 
        statutory sanctions with respect to Iran under any 
        provision of law.''

    And so unless you have something to the contrary, and I 
would welcome any illumination that you may have, it seems to 
me until such time as the President complies with the statute 
and provides the United States Congress all side agreements, he 
has no right to relieve any sanctions, and if he does so he is 
in violation of the law, which might be an impeachable offense. 
Do you have any comments in that regard?
    General Wald. No.
    Mr. Brooks. Admiral Fallon.
    Admiral Fallon. Wouldn't touch it.
    Mr. Brooks. Vice Admiral Bird.
    Admiral Bird. No, sir.
    Mr. Brooks. Thank you, Madam Chairman.
    Chairman Royce [presiding]. All right. Lois Frankel of 
Florida.
    Ms. Frankel. Thank you, Mr. Chair, and thank you for this 
robust debate.
    I have heard the number 15 a number of times. I have 
another way of looking at it. Fifteen seconds. That is how long 
a child who lives near the Gaza Strip in Israel has to take 
cover when a missile is shot into their city, 15 seconds. There 
have been over 10,000 rockets fired by Hamas, with the support 
of Iran, into Israel. There are 100,000 missiles that Hezbollah 
has aimed at Israel with the help of Iran.
    We have been talking a lot about Israel. What about the 
children in Syria? They don't even have a bomb shelter to run 
into. Barrel bombs with chlorine, with shrapnel dropped. We saw 
videos of children suffering from nerve gas poisoning right 
here in this meeting. All at the hands of Assad, who is being 
propped up by Iran.
    Listen, I applaud the President for trying a diplomatic 
settlement. I believe in a diplomatic settlement. I believe 
Iran should not have a nuclear weapon. But in my mind, the 
tradeoff is too great right now, to give billions of dollars to 
Iran, and not enough of a concession. So that is my take on it.
    But I do have a question, and I think this would help the 
public a lot in the discussion, which is if you could explain 
the relationship between Iran and Syria and Israel, and why it 
is you believe that Iran continues to prop up all this horrific 
terrorist activity.
    General Wald. Yeah, I mean, I think what you brought up is 
really a good point that probably none of us really understand 
for sure. But I think the point that I take from that is that 
we want to treat Iran like we think. They don't think like us. 
And I think most people think: Well, they have to, they are 
human beings. They have a different culture, they have a 
different way of looking at things, they have different 
standards, they have different goals. And I think one of the 
biggest problems we have is we really don't understand the 
Iranians. I think we----
    Ms. Frankel. Excuse me, though, but don't they have a 
regional mission?
    General Wald. The Iranians?
    Ms. Frankel. Yes. They have a----
    General Wald. They want to be a regional hegemon, there is 
no doubt about it. But the motivation part is difficult. And I 
think one of the dangers we have when we go into negotiations 
sometimes is this is the way I wish it would, let's act that 
way. It really isn't. And I think the Iranians basically have a 
very limited reality from the standpoint of ethical 
truthfulness.
    Admiral Fallon. Opinion?
    Ms. Frankel. Yes.
    Admiral Fallon. I had a lot of those today. I will give you 
one more. Very pragmatic. Their allies and surrogates and 
henchmen are Hezbollah in Lebanon. If Syria goes the other way, 
they are cut off from them. Very difficult to get the kind of 
support into Lebanon given the Israeli control of the coast and 
the other border. So very pragmatically, if they lose Syria, 
their best buds over there and proxies now, they are in deep 
trouble.
    Admiral Bird. I agree with General Wald and Admiral Fallon, 
I think Iran has regional hegemony, a Shia Crescent, if you 
will. They have a strategy that has no rules, no principles, no 
morals whatsoever. And their strategy, if you look at the last 
15 years to date, has been brilliant, and I believe with this 
agreement it is furthered.
    Mr. Wieseltier. I agree with what my colleagues have said 
and would add only that one of the reasons that some of us have 
been futilely agitating for the Obama administration to 
intervene in Syria 3 and 4 years ago was because we regarded 
the fall of the Assad regime as probably the greatest strategic 
wound we could inflict upon the regime in Tehran. Assad is 
their most important regional client, and as things now stand, 
there is a belt, an access, a corridor, whatever, of Iranian 
control, of Iranian influence from Tehran all the way to the 
Mediterranean, and that is one of the most important 
geopolitical facts about the region.
    Ms. Frankel. Thank you, Mr. Chair.
    Chairman Royce. Thank you, Ms. Frankel.
    We go now to Scott Perry of Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman.
    Gentlemen, would any of you disagree that Iran, over the 
last, say, 36 years regarding agreements with the West, nuclear 
or otherwise, including on this very current day, have been 
known and documented, acknowledged cheaters? Would anybody 
disagree with that? I am just trying for expediency sake. Okay.
    So, Admiral Fallon, you as well or not?
    Admiral Fallon. Yeah, I said that. I don't trust these 
guys. What else is new?
    Mr. Perry. Okay. All right. Fair enough.
    And so in particular, because you are one member of the 
panel that has found some accord with this agreement or at 
least a way to agree with it or think it is better than it 
isn't, I want to have a conversation with you. But I don't want 
to have this dialectic conversation because we have a 
difference of opinion. But for your part in it, I wonder what 
facts--and I pause there purposely--what facts lead you to 
believe, after 36 years--and thank you very much for your 
service, sir, you were right there, so you have an additional 
credibility that very few people have--but what facts lead you 
to your conclusion? Not suppositions of the future, not this 
Ayatollah will be dead, not----
    Admiral Fallon. The conclusion?
    Mr. Perry. Yes.
    Admiral Fallon. What conclusion?
    Mr. Perry. The facts that you concluded that this is a good 
deal because of what might happen in the future in 15 years, 
that the young population might change and overthrow its 
government, the Ayatollah will be dead, and there won't be a 
replacement. What facts?
    Admiral Fallon. So I wouldn't characterize this as a good 
deal, but I would characterize it as the best alternative we 
have to stop them from a nuclear weapon. And the reason I think 
that this has a chance to succeed is because the detailed 
implementation, if they are carried out, of the stopping the 
two nuclear pipelines of uranium and plutonium give us the best 
chance of achieving what we really want----
    Mr. Perry. Arguably----
    Admiral Fallon [continuing]. To stop the weaponing.
    Mr. Perry. The timeline is 15 years maximum, right? Would 
you acknowledge that?
    Admiral Fallon. No.
    Mr. Perry. If I agree with you on everything--by the way, 
and I don't, because I think they are going to continue to 
cheat, but that is my supposition.
    Admiral Fallon. So do I.
    Mr. Perry. But regardless, in 15 years it is open, the 
store is open, do whatever you want.
    Admiral Fallon. I don't think so. I don't think it is----
    Mr. Perry. Based on what?
    Admiral Fallon. Based on what? Based on the fact that if, 
in fact, this thing is implemented, as it has been laid out in 
its various steps, they will have had 15 years with a minimum 
amount of fissionable material, who knows what other things are 
going to happen? But the key thing is----
    Mr. Perry. But in 15 years----
    Admiral Fallon. If I could, though----
    Mr. Perry. With all due respect----
    Admiral Fallon [continuing]. You make this assumption that 
in 15 years everything is going to be exactly the same as it is 
today. I don't believe that for a second.
    Mr. Perry. No, I don't think it is going to be exactly the 
same, not the least of which are their increased military 
capability over that period of time and our diminished ability 
to reach out and touch them tactically because of their 
increased military prowess.
    But that having been said, I just have to disagree with 
you, and it seems to me that the facts don't comport with 
reality here. And so to get some of the other folks involved--
before I do that, though, a better deal. Let me ask you this. 
Wouldn't a better deal include action, reaction. So they act, 
we have problems with them, not only the United States, but the 
Western civilized world has a problem with them, so they act in 
accordance with some of the demands. In other words, stop some 
of the terrorist things do this and do that. And then once you 
act, then we will react. But that is not what this deal is. 
Would not that, just as a simple structure, be a better deal?
    Admiral Fallon. But that is not part of the deal. It might 
well be, but that is not part of the deal.
    Mr. Perry. But you said there is no better deal, but you 
just acknowledged just now that that could be a better deal if 
we structured it that way.
    Admiral Fallon. That is a fiction. That is a wish.
    Mr. Perry. It is a fiction because we haven't made it a 
reality. We have the possibility and the ability to make all 
that a reality.
    Admiral Fallon. I disagree.
    Mr. Perry. All right.
    Let me ask you this. And Mr.--is it Wieseltier. How you 
pronounce your name?
    Mr. Wieseltier. Wieseltier, yeah.
    Mr. Perry. I am fascinated to get your answer on this, too. 
We have very different cultures, ideologies, theologies, et 
cetera. Is there a possibility that we will never, ever get 
along with Iran or this--the people that think like the people 
that are in charge in Iran? And if that is true, at what point 
down the line of this agreement, at what point will that be 
obvious to you and you will say we have to scuttle where we are 
and make the best of what we can and that we are never going to 
agree with these people? Is there some point, sir, Admiral?
    And if not, if you need to think about it, Mr. Wieseltier, 
is there some point.
    Mr. Wieseltier. Well, look, I think I would be a little bit 
careful about painting cultural differences this grossly. We 
are human beings. They are human beings. We can understand each 
other. I mean, we can agree, we can disagree, they have their 
reasons, we have our reasons. But I am not worried that they 
are so far gone into some alien culture, or what someone said 
earlier, some culture of death. I mean, I don't know what these 
things mean, and they veer toward kind of ugly prejudice, which 
I know you don't intend, but one has to be careful.
    I think that what we already understand about the world 
view of this regime and about its history suffices to establish 
that it is our enemy, and it is the enemy of democracy, and it 
is the enemy of many states who are our allies, and it is the 
enemy of things that we cherish. I think it couldn't be 
clearer.
    General Wald. Yeah, I would like to comment on that, too, 
if I might.
    Chairman Royce. General Wald, I am sorry, we are out of 
time.
    We are going to go to Gerry Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman.
    And picking up on your last point, Mr. Wieseltier. Is it 
unusual for the United States to negotiate with its 
adversaries?
    Mr. Wieseltier. Depends when and about what.
    Mr. Connolly. Did we do it with the Soviet Union?
    Mr. Wieseltier. About certain things we certainly did.
    Mr. Connolly. Was the Soviet Union dedicated to our 
destruction?
    Mr. Wieseltier. In some ways ideologically it was, and it 
had the ability to destroy us.
    Mr. Connolly. Did it also engage in warfare and terrorism 
and insurgency at our expense?
    Mr. Wieseltier. It did.
    Mr. Connolly. Yeah. Thank you.
    Mr. Wieseltier. Well, hold up. May I say something about 
it?
    Mr. Connolly. Yes, sir.
    Mr. Wieseltier. The difference between our approach to Iran 
in our negotiations and the approach toward the Soviet Union 
was this. This is now the 40th anniversary of the Helsinki 
Watch Accord. When it was proposed that the United States begin 
to press the Soviet Union on human rights during a period of 
intense arms control negotiations, there were people in favor 
of detente, a statesman rail, political people who said: You 
are out of your mind, the stakes are too high, the nuclear 
negotiations will collapse, we cannot go after them on moral 
questions, on human rights questions, on democracy. Those 
people lost.
    Mr. Connolly. Yeah.
    Mr. Wieseltier. And we in fact did negotiate with them on 
both tracks, and the duality of those tracks is what is missing 
here----
    Mr. Connolly. Right.
    Mr. Wieseltier [continuing]. And what determined some of 
the outcomes there----
    Mr. Connolly. But there is also one big difference. We 
hadn't had a cone of silence for 30 years. This is our first 
real substantive engagement with this country in a long time. 
And to me it is remarkable that actually we were able to 
negotiate an agreement like this, including with two would-be 
adversaries in various guises, Russia and China.
    Admiral Fallon, how close do you think, is it your 
assessment, Iran is to actually crossing that threshold as a 
nuclear state right now? Months? Years?
    Admiral Fallon. I think it is close, certainly inside of 
years, but I am also mindful of the couple of decades worth of 
they are going to have it next year or 2 years, I have heard 
that from----
    Mr. Connolly. Does the agreement in front of us roll back--
--
    Admiral Fallon. Here is the key thing.
    Mr. Connolly. We are going to have to watch our time, 
Admiral Fallon. I am not trying to interrupt you or be rude, 
but this chairman is going to put that gavel down in 2 minutes 
and 42 seconds. So I want to pursue a line of questioning with 
you, if you don't mind.
    Admiral Fallon. Okay.
    Mr. Connolly. Does this agreement roll back existing 
nuclear capabilities?
    Admiral Fallon. It takes off the table the fundamental 
nuclear capability that Iran has been working hard to----
    Mr. Connolly. Does it reduce enriched material?
    Admiral Fallon. Of course.
    Mr. Connolly. Does it reduce the level of enrichment of 
what is left behind?
    Admiral Fallon. The amount left behind is a fraction of 
what is available to them.
    Mr. Connolly. And it reduces it to 3.67 percent. Is that 
not correct?
    Admiral Fallon. Correct.
    Mr. Connolly. Does it mothball a significant number of 
existing centrifuges?
    Admiral Fallon. Yes.
    Mr. Connolly. Does it change the equation at the plutonium 
production facility?
    Admiral Fallon. Stops it.
    Mr. Connolly. Stops it. Does it make it harder or easier 
for Iran to develop a nuclear weapon?
    Admiral Fallon. At least it appears to be would be much 
more difficult.
    Mr. Connolly. And I heard the timetable some people want 
you to believe, want us all to believe, that somehow magically 
this all ends in 15 years and now we have created a guarantee 
for a nuclear Iran. Is that your view?
    Admiral Fallon. No, because there are parts of this 
arrangement that actually go well beyond that, in perpetuity in 
some cases. Again, do we trust them? No. We are going to have 
to try----
    Mr. Connolly. We didn't trust the Soviets. Ronald Reagan 
said, ``doveryai, no proveryai,'' trust, but verify. So we have 
no reason to trust them, that is why we create a, hopefully, 
verifiable and inspection-laden regime, right?
    Admiral Fallon. Or as my good friend and colleague Mike 
Mullen just said a couple of days ago, I read, distrust.
    Mr. Connolly. Distrust.
    Real quickly. The so-called--the military referred to 
kinetic option. When you look at, you know, other alternatives, 
a number of military have testified that the only real viable 
alternative--the notion that we are going to go back to the 
negotiating table and everyone is going to come back as one 
happy family after we renounce our own agreement and then ask 
them to start all over again, to me is delusional and very 
specious logic, if there is any logic at all. Would you agree 
with that?
    Admiral Fallon. I think the reality here is that the other 
countries have already decided. And, again, it is pretty busy 
commercial traffic into Tehran now. So sanctions are gone.
    Mr. Connolly. Forgive me for not giving you more time and 
others on the panel, but real quickly, would you describe the 
kinetic option? What is going to be entailed? If this fails, if 
we walk away from this successfully and the negotiating 
partners collapse, the military option, the kinetic option, 
what does it entail and what are the consequences, you as a 
former member of our military, fear?
    Admiral Fallon. Probably a little more pointed than that, 
actually had the responsibility for executing such a thing if 
it were ever called upon. So you can do all kinds of things 
militarily. We have overwhelming comparative power to these 
guys. We could hurt them badly, in my opinion. The idea that 
this would somehow, by dropping a number of bombs, remove the 
threat, I believe is total nonsense.
    We could remove it, and that would probably involve a very, 
very significant land force to go do and basically take care of 
things. But to do this all just with a bunch of bombs, I don't 
think so.
    Mr. Connolly. Thank you.
    Thank you, Mr. Chairman.
    Chairman Royce. We go now to Ted Poe of Texas.
    Mr. Poe. The Ayatollah today tweeted: ``Israel will not see 
the next 25 years. There will be nothing as a Zionist regime by 
the next 25 years.'' The Ayatollah also has recently said more 
than once: ``Death to America.'' Seems to me that is their 
foreign policy.
    Is there any reason, General, that we should not believe 
the Ayatollah when he says, ``Death to America, down with 
Israel in 25 years,'' or is that just a bunch of rhetoric?
    General Wald. You know, I have thought about this a lot, 
and I have heard this from people a lot, and they say: ``That 
just is rhetoric. You just don't know.''
    Mr. Poe. Well, what do you think?
    General Wald. I don't know. Frankly, my issue is if I was 
100 percent sure they were just saying that, it didn't matter, 
then I wouldn't care. I think there is a possibility.
    First of all, as was pointed out, they have no compulsion 
about killing our troops, our U.S. troops with some of the most 
horrendous weapons I have ever seen, these VIDs they have 
helped build, and are right behind that every time. The Quds 
Force commander the other day said the same thing you just 
mentioned.
    Mr. Poe. So why this nuclear----
    General Wald. They say that every day. If I am in Israel--
--
    Mr. Poe. I am sorry, general, I am reclaiming my time. I 
know I was just a sergeant in the Air Force, but I am 
reclaiming my time.
    General Wald. No, anyway, it doesn't seem logical to us, 
but I don't think we understand them. I would say you got to 
take it for what it is worth.
    Mr. Poe. All right.
    Admiral, I will ask the Navy a question.
    Admiral Fallon. What is that? You passed on the Navy?
    Mr. Poe. No, I didn't say I would pass on the Navy.
    Let me move on and ask something else. Admiral Bird, let me 
ask you a couple of questions about the policy of Iran. We 
know, the world knows this deal is going on, and we have Iran 
making all of these statements. Assume everything in the deal 
takes place. Is the world going to be safer or less safe at the 
end of the day from a nuclear Iran?
    Admiral Bird. Well, as I have testified, I think, arguably, 
in the short term, as Admiral Fallon would say, from a nuclear 
perspective we might be safer. In terms of the conventional and 
all the things I mentioned from asymmetric, less safe in the 
region, more destabilized.
    In the long term, we will have a nuclear Iran, which we 
have sanctioned, and we will be much less safe.
    Mr. Poe. Do you think when the Ayatollah says, ``Death to 
America,'' he is serious or is that just some rhetoric?
    Admiral Bird. I think he is serious on his tweeting and 
things he says, and if you will pardon my cynicism, he never 
agreed to not be that way in the deal. He just agreed to comply 
with this limitation for 15 years on nuclear weapons.
    Mr. Poe. The inspection, if I understand this agreement, 
the inspection is going to be done by the Iranians. Is that 
right, Admiral Bird?
    Admiral Bird. Sir, I don't know. I know there is 
speculation. I think this goes to Mr. Issa's questions about 
the secret agreement or at least not revealed to the Congress 
of the IAEA in Iran and what they have a deal to in terms of 
the Additional Protocol.
    Mr. Poe. Don't you think Congress ought to see this side 
agreement, however many they are, whatever it is, before we 
even decide whether or not it is good for the United States?
    Admiral Bird. I absolutely do.
    Mr. Poe. I think it is foolhardy that we would make a vote 
on such an important national security issue if we don't see 
the side deals. It seems to me, though, the Iranians are going 
to be the ones that investigate the Iranians to see if the 
Iranians are cheating or not. I used to be a judge. That is 
like putting 12 burglars on a jury for trying a burglar. I have 
got problems with the Iranians investigating the Iranians about 
nuclear weapon development.
    Does anyone see in this agreement that scenario or is it 
some independent outside group? Admiral Fallon, what do you 
think?
    Admiral Fallon. Could I point out something, Congressman?
    Mr. Poe. Just answer that question. I only have 5 minutes, 
and 20 seconds left. Is it the Iranians going to be 
investigating the Iranians and we got to give them 24 days 
notice before we show up?
    Admiral Fallon. I don't believe that.
    Mr. Poe. You didn't see that in the agreement?
    Admiral Fallon. I didn't read it that way, no.
    Mr. Poe. Did you read the agreement?
    Admiral Fallon. Sure.
    Mr. Poe. Well, I read it that way.
    Admiral Fallon. Okay.
    Mr. Poe. So let me just ask all four of you this question. 
I have got 4 seconds left. Should Congress approve this deal or 
not?
    General.
    General Wald. Going to make Iran more strong.
    Mr. Poe. Admiral Fallon.
    Admiral Fallon. Congress should support implementation of 
this thing as the best alternative.
    Mr. Poe. Admiral Bird.
    Admiral Bird. Disapprove the deal, yes, sir.
    Mr. Wieseltier. No.
    Mr. Poe. Thank you.
    Chairman Royce. All right. We go now to Mr. Ted Yoho of 
Florida.
    Mr. Yoho. Thank you, Mr. Chairman.
    Gentlemen, appreciate you for being here.
    I think so much has been said already today. Number one is, 
everything that we have already talked about, I think we are 
all in agreement that Iran is an enemy of the United States. We 
are all in agreement of that.
    Iran is the leading sponsor of state terrorism. Of the 
young men and women that have been killed or wounded in 
Afghanistan and Iraq, 70 percent came from IEDs, 90 percent of 
those came from Iran.
    And you just stated, Vice Admiral Bird, that this deal will 
make Iran stronger?
    General Wald, Admiral Fallon, with the release of the 
money, whether it is $50 billion or $100 billion, will it make 
them stronger?
    General Wald. I think that is the issue here, and I think 
the issue here is that we are not sure what we are going to get 
from a verification. And, yes, they will become stronger----
    Mr. Yoho. I am going to talk about that.
    Admiral Fallon, will this make them stronger, give them 
this money?
    Admiral Fallon. I don't believe so.
    Mr. Yoho. You don't believe so?
    Admiral Fallon. No.
    Mr. Yoho. Okay. Mr. Wieseltier.
    Mr. Wieseltier. In non-nuclear and conventional measures of 
military strength, asymmetrical warfare, terrorism and so on, 
yes.
    Mr. Yoho. Okay. So let's look at where they are at right 
now without this money. They are funding terrorism around the 
world. I mean, as short as 3 years ago they plotted to kill the 
Saudi Ambassador on U.S. soil. So we have a good idea.
    And, Admiral Fallon, you said we can't project into the 
future. It is kind of like que sera, sera, kind of a Doris Day 
song, you know, no offense to you. Hold on just a second.
    Admiral Fallon. I don't believe that for a minute.
    Mr. Yoho. And you were saying----
    Admiral Fallon. No, I am not clairvoyant. I don't know that 
it is.
    Mr. Yoho. You served for 40 years in this country, and I 
thank you for your service, and I know strategically in the 
military you project 5, 10, 15, 20, maybe 100 years, hopefully, 
down the future.
    All one has to do to look at one's past is to look at the 
present situation. You see Iran, the leading sponsor of 
terrorism around the world, death to America, death to Israel, 
they are funding Hezbollah, Hamas. They have already said that 
they are going to retrofit over 100,000 scud-type missiles for 
Hezbollah with pinpoint accuracy laser technology. They are 
already saying that. They are already going to rebuild the 
tunnels. We see what they are doing in Central and South 
America.
    So we see their present situation. We can predict what they 
are going to do in the future by what they are doing today. 
And, I mean, it is pretty clear they are an enemy of the United 
States, they are going to get stronger from this. And, you 
know, as far as an option, we need to walk away from the table, 
we need to run away, and the world, I think, will follow us.
    Yes, there is economic development in there, but if we 
don't walk away from this deal there will be no snapback, and 
that was a fallacy anyways. Walk away, bring them back, put the 
sanctions back on, and when they are ready to negotiate they 
will release our four Americans, they will denounce terrorism, 
they will stop stating what they are doing, and this threat 
around the world. And it goes back to Sharia--not Sharia law, 
but Islamic law, the law of Taqiyyah, lie, cheat, and deceit 
every chance you can if it advances the Islamic state. And that 
is what they have done for thousands of years.
    And, Mr. Wieseltier----
    Mr. Wieseltier. No, Congressman, I have to say that my 
opposition, my view of the Iranian Government has been 
perfectly clear. But for the record, I want to note that 
Christians and Jews have lied and cheated for thousands of 
years too, that the explanation of this in terms of their 
religion seems to me to be inadequate and really cannot explain 
what it is that----
    Mr. Yoho. I am not going to disagree with that, but I am 
not negotiating with a Jewish state or a Christian state that 
is going to get a nuclear bomb.
    Mr. Wieseltier. Right. I just suggest that----
    Mr. Yoho. According to our preamble of the Constitution, 
the number one goal of the United States of America is for the 
common defense of my country.
    Mr. Wieseltier. Absolutely.
    Mr. Yoho. And that is what I am worried about.
    Mr. Wieseltier. Absolutely.
    Mr. Yoho. And this is going to--you all agree that this is 
going to make Iran stronger.
    Mr. Wieseltier. My point is only that we need to analyze 
Iran, even in our opposition to it, in an intellectually 
responsible manner.
    Mr. Yoho. And intellectually responsible, this is a bad 
deal, we need to run away it from.
    And I am going to yield back, Mr. Chairman. I appreciate 
it. I just wanted to get that out.
    I appreciate the service all of you did, and I would hope 
you would help us turn this deal down and make a better deal.
    The Corker and Cardin amendment or bill, we have already 
passed the deadline of that. This is a moot point. We are 
beyond that, and we need to start over.
    I yield back.
    Chairman Royce. We stand adjourned. I want to thank the 
panel one more time for your testimony here today, and also 
thank you very much for your service. Admiral and Vice Admiral, 
General, thank you for your service to this country.
    [Whereupon, at 12:30 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
